1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[filed August 14, 2020]
MARY STEWART, as
Administrator of the Estate of
Luke O. Stewart, Sr., Deceased,

No. 18-3767

Plaintiff-Appellant,
v.
CITY OF EUCLID, OHIO;
MATTHEW RHODES,
Euclid Police Officer,
Defendants-Appellees.
Appeal from the United States District Court for the
Northern District of Ohio at Cleveland.
No. 1:17-cv-02122—James S. Gwin, District Judge.
Argued: May 8, 2019
Decided and Filed: August 14, 2020
Before: SILER, GIBBONS, and DONALD, Circuit
Judges.
COUNSEL
ARGUED: Jacqueline Greene, FRIEDMAN &
GILBERT, Cleveland, Ohio, for Appellant. Frank H.
Scialdone, MAZANEC, RASKIN & RYDER, CO.,
L.P.A., Cleveland, Ohio, for Appellees. ON BRIEF:
Jacqueline Greene, Sarah Gelsomino, Terry H. Gilbert, FRIEDMAN & GILBERT, Cleveland, Ohio, for
Appellant. Frank H. Scialdone, James A. Climer,
MAZANEC, RASKIN & RYDER, CO., L.P.A., Cleveland, Ohio, for Appellees.

2a
SILER, J., delivered the opinion of the court in
which GIBBONS, J., joined. DONALD, J. (pp. 15–
24), delivered a separate opinion concurring in part
and dissenting in part.
OPINION
SILER, Circuit Judge. Plaintiff Mary Stewart appeals the district court’s grant of summary judgment
to defendants, Officer Matthew Rhodes and the City
of Euclid, on her claims brought pursuant to 42 U.S.C.
§ 1983 and state law. We AFFIRM dismissal of Stewart’s federal claims but REVERSE dismissal of
Stewart’s state law claims and REMAND to the
district court.
FACTUAL HISTORY
Around 7:00 a.m. on March 13, 2017, a Euclid,
Ohio resident called the police department to report
a suspicious vehicle outside her residence. The caller
said a black car she did not recognize had been idling
for about twenty minutes with its parking lights on.
Officers Rhodes and Catalani were dispatched to
check on the vehicle.
Hidden from view behind the Honda’s dark windows was a sleeping Luke Stewart. He had hoped to
spend the night at a friend’s house, but when the
friend did not answer his phone, Stewart parked
nearby on South Lakeshore Boulevard. The area is
residential with a school in close proximity.
Officer Catalani was the first to arrive at the scene.
Initially, he positioned his car behind Stewart’s vehicle, similar to a traffic stop. Catalani noticed the vehicle’s running lights were on.

3a
Catalani shined his flashlight through the car’s
windows and saw a digital scale in the center console
area, an item he thought to be a burnt marijuana
blunt in the passenger seat, and an aluminum screw
top he believed to be from a wine bottle. Catalani also
noticed Stewart who appeared asleep in the driver’s
seat. Catalani ran the license plate of the vehicle,
which indicated the vehicle’s owner had an outstanding warrant, but ultimately thought Stewart looked
too young to be the owner.
While Rhodes drove to the scene, he heard Catalani radio that the car was occupied but that he did
not believe it was by the vehicle’s owner. Catalani
stated, “once you get here, we’re goina [sic], uh, end
up pulling this guy out.” When Rhodes arrived, Catalani explained what he had seen inside the car, and
then Rhodes moved his car in front of the Honda
to limit the potential for escape. Rhodes turned on
his takedown lights and his spotlight but, like Catalani, did not turn on his vehicle’s dashboard camera
or his belt microphone. Neither officer turned on his
vehicle’s blue and red overhead lights.
Rhodes approached Stewart’s vehicle from the
passenger’s side while Catalani approached from
the driver’s side. Catalani knocked on the window,
and Stewart woke up. Catalani waived at Stewart
and said, “hi.” Stewart waived back, sat up in the
seat, and started the car. Neither officer announced
himself as a police officer. Catalani yelled for Stewart to “stop” and opened the driver’s side door in an
attempt to keep the vehicle from moving. He grabbed
Stewart’s left arm and tried to pull him away from
the gearshift and out of the vehicle. Catalani reached

4a
around Stewart’s head with his right arm in an attempt to grab a pressure point under Stewart’s jaw.
Stewart began yelling.
While Catalani attempted to pull Stewart out of
the Honda through the driver’s side door, Rhodes
opened the passenger’s side door and began pushing
Stewart. Rhodes leaned his upper body into the vehicle and braced his knees on the passenger’s seat.
Stewart did not prevent Rhodes from pushing him,
but put the vehicle into gear and drove the Honda
into Rhodes’s patrol vehicle. While Catalani testified
that the Honda struck the patrol car “pretty hard,”
neither officer remembers falling or losing balance
from the impact. Stewart was able to drive around
Rhodes’s police car on the side closest to the center of
the road.
Rhodes continued trying to gain control of the gear
shift from the passenger’s side of the car and, fearing
his legs would be trapped if Stewart were to hit
the open car door against Rhodes’s patrol car as he
went around it, Rhodes pulled his legs into the
Honda. The door shut behind him. Catalani, who was
still moving alongside Stewart’s open driver’s side
door, decided to disengage with Stewart in fear of
being injured by an oncoming vehicle. Catalani estimates that ten to fifteen seconds elapsed from the
time he tapped on Stewart’s window to Stewart’s
driving around Rhodes’s patrol car.
To this point, Stewart had made no attempt to
strike either officer. He began driving the vehicle
down the road within the speed limit at around
twenty-five miles per hour. While driving, Stewart
looked over at Rhodes and asked, “Why are you in my
car?” Rhodes yelled at Stewart in response, but does

5a
not recall what he said. Catalani chased behind on
foot.
Inside the car, Rhodes was intermittently attempting to gain control of the gearshift and the ignition keys while also striking Stewart in the side of
the head with a closed fist. The strikes did not seem
to have any effect on Stewart and he did not try to
defend himself; Stewart simply responded to each
blow by saying, “Naw, n****.” Each time Rhodes
pushed the gearshift into neutral, Stewart pushed it
back into drive.
Rhodes eventually deployed his taser into Stewart’s right side. Stewart shouted “Ah,” and said,
“you shot me.” Rhodes pulled the taser trigger six
times, but it had little effect on Stewart. He did not
use the taser’s close range drive stun feature; Rhodes
did, however, use the taser to hit Stewart in the head
causing a cut to open. Again, Stewart did not respond
other than to say, “Naw, n****.”
The Honda came to a stop in the intersection of
South Lake Shore and East 222nd Street while making a left-hand turn. Rhodes believed he and Stewart
hit another car because of how abruptly Stewart’s
vehicle stopped. Catalani testified that the Honda
never struck a vehicle, however, and he thought the
car simply stalled out. Rhodes believes he was
thrown into the dashboard but does not “remember
exactly.” He testified that, during the stop, Stewart
swatted at him and pushed him away but not with a
closed fist. Rhodes got the car into neutral and shut
off the engine, but could not get the keys out of the
ignition. Rhodes heard dispatch instruct nearby officers to assist. The car was stopped for approximately ten to fifteen seconds in the intersection;

6a
Rhodes did not try to get out of the car. Moments
before Catalani reached the vehicle from behind,
Stewart turned the car back on and continued driving.
After completing the turn onto 222nd Street,
Stewart drove the car at approximately twenty to
thirty miles per hour. Rhodes unsuccessfully tried
again to put the car in park. The Honda went up
over the curb and around a telephone pole before returning to the street. The car mounted the curb again
near the intersection of 222nd Street and Milton Avenue. Rhodes claims he was thrown forward the second
time the car struck the curb and Stewart used his
right arm to push him forward, but Stewart made no
attempt to strike Rhodes. At this point, Rhodes was
able to get the car back into neutral, but Stewart continued to rev the engine. Rhodes believed that if he
and Stewart “went forward again we were going to hit
a telephone pole,” implying the vehicle had stopped
moving forward.
It was then that Rhodes pulled out his pistol and
fired two shots into Stewart’s torso. Stewart looked
at Rhodes, said “Naw, N****,” and, according to
Rhodes, Stewart attempted to “punch” him for the
first time. Rhodes shot Stewart three additional
times, striking him in the neck, chest, and wrist.
Stewart died from his wounds.
A later investigation by the Ohio Bureau of Criminal Investigation reported that continuous radio
traffic showed fifty-nine seconds elapsed from the
time Catalani advised dispatch that Stewart began to
flee to the time he reported shots fired.

7a
PROCEDURAL HISTORY
Mary Stewart, the mother of Luke Stewart, filed
a lawsuit on his behalf against Officers Rhodes and
Catalani and the City of Euclid. She brought federal
claims pursuant to 42 U.S.C. § 1983 and Monell v.
Department of Social Services of the City of New
York, 436 U.S. 658 (1978) for violating Stewart’s
Fourth Amendment right to be free from excessive
force. And under Ohio law she claimed: (1) wrongful
death; (2) intentional infliction of emotional distress;
(3) assault and battery; (4) willful, wanton, and reckless conduct; and (5) survivorship claims against
Rhodes and Catalani. This appeal deals only with the
claims against Rhodes and the City of Euclid.
The district court found that qualified immunity
barred the constitutional claims against Rhodes. It
reasoned that Rhodes had probable cause to believe
he was in danger of serious physical harm when
unsecured in Stewart’s car; he was at risk of being kidnapped; and Stewart’s driving created a risk of serious physical harm to the public. The district court
found the Constitution allowed Rhodes to shoot Stewart to prevent those immediate dangers. Further, even
if Rhodes violated Stewart’s constitutional rights, it
held those rights were not clearly established as required to deny qualified immunity. Stewart’s Monell
claim was dismissed for lack of a constitutional violation, and the district court found Rhodes was entitled to immunity under Ohio law.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. Miller v. Maddox, 866 F.3d 386,
389 (6th Cir. 2017). All facts and related inferences

8a
are viewed in the light most favorable to the nonmoving party. Godawa v. Byrd, 798 F.3d 457, 462 (6th
Cir. 2015).
DISCUSSION
I.

42 U.S.C. § 1983 Claim Against Officer
Rhodes

Qualified immunity shields an officer from liability “insofar as [his] conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (internal quotation
marks omitted) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). Qualified immunity thus entails two steps that can be undertaken in any order:
(1) whether the public official’s conduct violated a
constitutional right, and (2) whether that right was
clearly established at the time of the events. Godawa, 798 F.3d at 462-63 (citation omitted).
a. Constitutional Violation
The Fourth Amendment to the United States
Constitution protects against unreasonable seizures,
which includes excessive force by law enforcement
officers. Latits v. Phillips, 878 F.3d 541, 547 (6th
Cir. 2017). Shooting Stewart is a seizure under the
Fourth Amendment. Smith v. Cupp, 430 F.3d 766,
774 (6th Cir. 2005) (citing Tennessee v. Garner, 471
U.S. 1, 9 (1985)). Thus, to be constitutional, it must
be reasonable.
The reasonableness of a seizure depends on context: officers may use “some degree of physical coercion or threat” to effect an arrest, but the amount
of force must be objectively reasonable under the

9a
totality of the circumstances. Graham v. Connor,
490 U.S. 386, 396 (1989). Important considerations
for determining reasonableness include “the severity
of the crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or others, and whether he is actively resisting arrest or attempting to evade arrest by flight.” Id. In deadly force
cases, the most critical factor is the immediate danger to officers and members of the public in the area.
Cass v. City of Dayton, 770 F.3d 368, 375 (6th Cir.
2014). Where an officer has probable cause to believe
the suspect poses such a threat of serious physical
harm, “it is not constitutionally unreasonable to prevent escape by using deadly force.” Garner, 471 U.S.
at 11.
The circumstances, and their totality, are considered as they would have appeared to “a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham, 490 U.S. at 396. We take
care not to “allow the theoretical, sanitized world of
our imagination to replace the dangerous and complex world that policemen face every day.” Smith v.
Freland, 954 F.2d 343, 347 (6th Cir. 1992).
As a threshold issue, it should be noted that
Rhodes’s choice to enter the vehicle, and his choice
not to exit the vehicle when it was stopped for ten
to fifteen seconds, is irrelevant in assessing the reasonableness of his use of force. See Thomas v. City of
Columbus, Oh., 854 F.3d 361, 365 (6th Cir. 2017)
(“We do not scrutinize whether it was reasonable for
the officer to create the circumstances” (quoting Livermore v. Lubelan, 476 F.3d 397, 406 (6th Cir. 2007))).
But having no duty to retreat does not mean
Rhodes could use deadly force; his actions must still

10a
be reasonable under the circumstances. Here, some
of the circumstances support the reasonableness of
Rhodes’s actions. Stewart drove into a police car at
the beginning of the interaction; his vehicle, for
whatever reason, unexpectedly stopped in the middle
of an intersection; and twice he drove onto a pedestrian sidewalk. All of this occurred at approximately
7:00 a.m. in a residential neighborhood with a school
nearby. Stewart certainly presented some danger to
the general public in the area.
So too do the circumstances show some danger
to Rhodes. He was unsecured in a vehicle doing
those things listed above. From the beginning to the
end of the interaction, Stewart continued to put the
car in drive and rev the engine, showing his commitment to driving the vehicle despite Rhodes’s efforts to stop him.
But the question is “whether the totality of the
circumstances” justifies deadly force. Graham, 490
U.S. at 396 (quoting Garner, 471 U.S. at 8-9). It does
not. For one, Stewart was not aggressive toward
Rhodes. The district court pointed out that, “[i]ndeed,
Stewart was just driving[.]” Despite being hit by
Rhodes’s fist and later his taser, Stewart rarely attempted to defend himself. At no point did either
officer see a weapon in Stewart’s car, much less one
that he attempted to use.
And Stewart’s driving, while poor, was not so dangerous as to constitute “an immediate threat to the
safety of the officers or others.” Id. The officers estimated that Stewart’s car only ever reached speeds of
twenty to thirty miles per hour, with the car coming
to a stop, or near- stop, twice during the approximately one-minute ride. While Rhodes claims to have

11a
feared death or serious injury from being ejected
through Stewart’s windshield at the time he discharged his gun, the car had previously come to
an abrupt halt in the intersection of South
Lakeshore Boulevard and East 222nd Street; Rhodes
does not remember if he went forward into the dashboard, and certainly did not sustain serious injury.
Most importantly, Rhodes admits the car was in neutral at the time of the shooting and, in a light most
favorable to the plaintiff, the car was not moving forward.
Even were Stewart to get the car back in gear, it
seems doubtful that Stewart’s driving alone was
threatening enough to justify shooting him.1 Finding
deadly force reasonable to end a car chase often involves “dangerous prior conduct by the driver, imminent risk of harm to an identifiable party, or objective evidence of the driver’s intent to harm officers.”
Latits, 878 F.3d at 551; see Scott v. Harris, 550 U.S.
372, 375-76 (2007) (driver exceeded 85 miles per hour
on a two-lane road, running multiple red lights,
swerving around more than a dozen cars, and forcing
other vehicles off the roadway); Freland, 954 F.2d at
347 (driver led police on a “wild chase” exceeding
speeds of 90 miles per hour).
Here, Stewart went up on the curb twice at low
speeds as Rhodes hit and tasered him. While Catalani testified that he disengaged due to an oncoming
vehicle, and that there were cars on 222nd Street,
1 It is true the Sixth Circuit recognizes that a dangerous situation may quickly evolve into a safe one before a police officer has
a chance to realize the change. Cupp, 430 F.3d at 774-75. But
here, it is unclear that Stewart’s driving ever presented the type
of immediate threat necessary for deadly force.

12a
he admits there were initially no other cars on the
street; neither side has pointed to evidence showing
that there were bystanders or pedestrians along
Stewart’s route.
A jury could find that Stewart’s use of the vehicle
was not threatening lives around him and thus
Rhodes’s use of force was unreasonable. See, e.g.,
Cupp, 430 F.3d at 775.
Finally, no reasonable officer in Rhodes’s position
would believe he was being kidnapped by Stewart.
In fact, the circumstances here are the opposite of a
kidnapping: Stewart was attempting to flee officers.
While Rhodes had no duty to retreat from the vehicle,
his entry into the vehicle and the availability of an
exit speak to the totality of the circumstances informing his use of deadly force. A reasonable officer in
Rhodes’s position would have known that it was his
own choice, and not any sort of pressure by Stewart,
that caused him to enter the car. While these are acts
Rhodes was legally entitled to do, a reasonable officer
in his position would have understood he was not being kidnapped.
Some of the circumstances in this case suggest
that Rhodes’s use of deadly force was reasonable.
Others—specifically, Stewart’s lack of aggression toward Rhodes, the low speeds at which he was driving,
and the fact that the car may have been already
stopped at the time he was shot—allow a reasonable
jury to find facts showing Stewart did not present an
immediate danger of serious physical injury and thus
the use of deadly force was unreasonable.

13a
b. Clearly Established
Regardless of whether a constitutional violation occurred, however, the district court was correct
to find the contours of the right were not clearly established in these circumstances.
To be “clearly established,” existing precedent—either controlling authority or a “robust consensus of cases of persuasive authority”—must have
placed the constitutional question “beyond debate.”
Latits, 878 F.3d at 552 (quoting Plumhoff v. Rickard, 572 U.S. 765, 780 (2014)). The Supreme Court
has recently elaborated:
The “clearly established” standard also requires that the legal principle clearly prohibit the officer’s conduct in the particular
circumstances before him . . . . This requires
a high degree of specificity. We have repeatedly stressed that courts must not define clearly established law at a high level
of generality . . . the specificity of the rule
is especially important in the Fourth
Amendment context . . . . Thus, we have
stressed the need to identify a case where
an officer acting under similar circumstances . . . was held to have violated the
Fourth Amendment. While there does not
have to be a case directly on point, existing
precedent must place the lawfulness of the
particular arrest beyond debate.
District of Columbia v. Wesby, 138 S. Ct. 577, 589-90
(2018).
Graham and Garner establish the broad proposition that a seizure by law enforcement under the

14a
Fourth Amendment must be reasonable, and it is unreasonable to seize a fleeing felon with deadly force
when the suspect poses no immediate threat to officers or others. 490 U.S. at 394-96; 571 U.S. at 11.
Other than in the “obvious” case, however, the Supreme Court has indicated these general propositions are “not enough” to delineate the contours of
the right—to alert officers to the beginning and end
of the right in the particular circumstances they
face. Brosseau v. Haugen, 543 U.S. 194, 198-99 (2004)
(quoting Saucier v. Katz, 533 U.S. 194, 201- 02
(2001)). Given the competing concerns noted earlier,
this is not an obvious case.
Stewart has pointed to no cases in this circuit
involving an officer being driven in a suspect’s car,
much less a case that shares similar characteristics
such as the suspect’s level of speed, aggression, or
recklessness. While it is correct that the Sixth Circuit has established precedent for use of deadly force
on those who flee in a vehicle, the two cases cited by
Stewart involve officers standing outside a vehicle
with wholly different concerns than an officer inside
the vehicle. Those cases primarily focused on whether
the officer was at risk of being hit or run over by the
vehicle, a threat Rhodes did not face inside Stewart’s
car. See Godawa, 798 F.3d at 464–67 (finding officer
outside a fleeing vehicle would have no fear of being
struck given his positioning on the rear passenger’s
side); Cupp, 430 F.3d at 774 (determining that a jury
could find an officer outside the fleeing vehicle was
never in its path and fired his weapon after the vehicle had passed and thus was not in immediate
danger). Put simply: cases about when officers may

15a
use deadly force against the driver of a vehicle bearing down on them explain very little about whether
that force is appropriate as a passenger of the vehicle.
While plaintiff need not provide a case factually on
all fours, existing precedent must be similar enough
to place the question beyond debate. Wesby, 138 S.
Ct. at 590. This circuit has not debated the types
and level of threat faced by an officer inside a fleeing
suspect’s vehicle, much less placed it beyond debate.2
Further, Stewart’s reference to two out of circuit
cases does not provide the “robust consensus” required for the right to be clearly established. Latits,
878 F.3d at 552. Neither controlling nor persuasive
precedent has clearly established Stewart’s rights in
the “particular circumstances” Rhodes faced. Wesby,
138 S. Ct. at 590. Indeed, few cases have ever considered the danger faced by an officer inside a fleeing
suspect’s vehicle and at what point it justifies the use
of deadly force. Rhodes is entitled to qualified immunity.

2 While the dissent makes a compelling argument, we think it
appropriate to narrowly evaluate the clearly established prong
here. Recently, the Supreme Court sharply criticized a circuit
for “defin[ing] the qualified immunity inquiry at a high level
of generality” in a vehicular flight case. Mullenix v. Luna, 136
S. Ct. 305, 311 (2015) (per curiam). See also District of Columbia v. Wesby, 138 S. Ct. 577, 589-90 (2018). Additionally, in a
previous vehicular flight case, the Supreme Court explained that
when an officer’s “actions fell in the hazy border between excessive and acceptable force,” we should hold that his conduct did
not violate clearly established law. Brosseau v. Haugen, 543
U.S. 194, 201 (2004) (citation omitted). Thus, Supreme Court
precedent binds us to taking a narrow approach in analyzing this
case.

16a
II.

Monell Claim Against City of Euclid

The Euclid Police Department’s deadly force
training program involved inappropriate and tasteless elements. The presentation materials included
jokes trivializing the use of force, such as a graphic
showing an officer beating a prone and unarmed
suspect with the caption “[p]rotecting and serving
the poop out of you.” The presentation linked to a
Chris Rock comedy routine in which Rock repeatedly
jokes about police beating citizens on grounds of race
and shows clips of officers beating suspects. Even
the components of the program that can be stomached appear skimped, such as the single genre of factual scenarios used to test officers.
But Stewart cannot sue the City of Euclid for its
distasteful, perhaps inadequate, training program. A
municipality may be held liable for the constitutional
violations of its employees when the municipality’s
custom or policy led to the violation. Monell, 436 U.S.
at 694-95. But “[o]nly where a municipality’s failure
to train its employees in a relevant respect evidences
a deliberate indifference to the rights of its inhabitants can such a shortcoming be properly thought of
as a city policy or custom that is actionable under §
1983.” City of Canton v. Harris, 489 U.S. 378, 389
(1989) (internal quotation marks omitted). And “a
municipal policymaker cannot exhibit fault rising to
the level of deliberate indifference to a constitutional
right when that right has not yet been clearly established.” Hagans v. Franklin Cty. Sheriff’s Office, 695
F.3d 505, 511 (6th Cir. 2012) (quoting Szabla v. City
of Brooklyn Park, 486 F.3d 385, 393 (8th Cir. 2007)
(en banc)). The Sixth Circuit more recently explained:

17a
When an injury arises directly from a municipal act—such as firing a city official
without due process, or ordering police to
enter a private business without a warrant, the violated right need not be clearly
established because fault and causation obviously belong to the city. But when a municipality’s alleged responsibility for a constitutional violation stems from an employee’s unconstitutional act, the city’s failure to prevent the harm must be shown to
be deliberate under rigorous requirements
of culpability and causation. The violated
right in a deliberate-indifference case thus
must be clearly established because a municipality cannot deliberately shirk a constitutional duty unless that duty is clear.
Arrington-Bey v. City of Bedford Heights, Ohio, 858
F.3d 988, 994-95 (6th Cir. 2017) (citations omitted)
(quoting Board of Cty. Comm’rs v. Brown, 520 U.S.
397, 415 (1997)).
Here, Stewart’s rights were not clearly established in the precedent of this circuit or otherwise.
Thus, violation of his rights cannot be the “known or
obvious consequence” disregarded by the City of
Euclid through its training program and the Monell
claim fails. Connick v. Thompson, 563 U.S. 51, 61
(2011).
III. Claims Against Officer Rhodes Under State
Law
The district court found that Rhodes was entitled
to immunity from Stewart’s various state law claims

18a
for the same reasons it concluded Rhodes did not violate Stewart’s constitutional rights. We have rejected
that analysis.
Statutory immunity under Ohio law, which applies to state law claims, is distinct from federal
qualified immunity. Roe v. Franklin Cty., 673
N.E.2d 172, 181 n.7 (Ohio. Ct. App 1996). Ohio provides statutory immunity from suit to its police officers unless, among other things, the officer’s “acts
or omissions were with malicious purpose, in bad
faith, or in a wanton or reckless manner.” Ohio Rev.
Code § 2744.03(A)(6)(b). Reckless conduct is “characterized by the conscious disregard of or indifference
to a known or obvious risk of harm to another that is
unreasonable under the circumstances and is substantially greater than negligent conduct.” Argabrite
v. Neer, 75 N.E.3d 161, 164 (Ohio 2016).
This court has previously endorsed the view that
under Ohio law, “if the trier of fact were to find that
[the decedent] posed no immediate threat of harm
to anyone else . . . then the officer’s actions in
shooting the decedent were reckless at best.” Sabo
v. City of Mentor, 657 F.3d 332, 337 (6th Cir. 2011)
(quoting Carpenter v. City of Cincinnati, No. C-1-99227, 2003 WL 23415143, at *13 (S.D. Ohio Apr. 17,
2003)). And an Ohio appellate court has explained
that the “relevant inquiry before the court [is]
whether [the officer], from his own perspective, reasonably had probable cause to believe that he [was] at
imminent risk of serious physical harm when he fired
his weapon.” Hayes v. Columbus, No. 13AP-695,
2014 WL 2048176, at *11 (Ohio Ct. App. May 15,
2014) (unreported).

19a
As noted previously, a reasonable jury could find
facts showing Stewart did not pose an immediate
danger of serious physical harm and thus the use of
deadly force was unreasonable. And the language of
§ 2744.03(A)(6)(b) does not appear to require analysis of whether the underlying right has been clearly
established in precedent, as does qualified immunity.
See, e.g., Bodager v. Campbell, No. 12CA828, 2013
WL 5741005, at *5 (Ohio Ct. App. Oct. 7, 2013) (unreported) (“Immunity from state law claims turns
not on the federal qualified immunity doctrine, but
on R.C. 2744.03(A)(6)”). A jury could find that Rhodes
knew firing his gun would cause harm to Stewart and
the firing was unreasonable in the circumstances.
Thus, Rhodes is not entitled to statutory immunity
from the state law claims.
The district court did not consider whether—
without immunity from suit—Stewart’s various
state law claims survive summary judgment. We remand these claims to the district court, which in its
discretion may determine whether supplemental jurisdiction should be exercised, see Musson Theatrical, Inc. v. Fed. Express Corp., 89 F.3d 1244, 125455 (6th Cir. 1996), and if so, whether the state law
claims may proceed to trial.
CONCLUSION
We AFFIRM dismissal of Stewart’s federal
claims and REVERSE dismissal of Stewart’s claims
under state law. The state law claims are
REMANDED to the district court for disposition consistent with this opinion.

20a
CONCURRING IN PART AND
DISSENTING IN PART
BERNICE BOUIE DONALD, concurring in part
and dissenting in part. While I agree that the district
court should be reversed on the state law claims and
that Officer Rhodes violated Luke Stewart’s Fourth
Amendment right to be free from unreasonable seizures, I would also find that the constitutional right
was clearly established and that, therefore, Rhodes is
not entitled to qualified immunity. The majority
evaluates the clearly-established prong too narrowly
and provides immunity to an officer who created a
dangerous situation and then used that situation to
justify the fatal shooting of a man who did not present an immediate danger of serious physical injury
to the officer. In fact, it is debatable whether Stewart
presented any danger to the officer or the public, or
if he even knew that Rhodes was a law enforcement
officer, since neither Rhodes nor Catalani announced
themselves as police officers.
I.
Despite § 1983’s categorical decree that all persons under color of state law who cause the deprivation of a constitutional right “shall” be subject to liability, the Supreme Court overlaid qualified immunity onto the statute’s directive in an effort to balance
its underlying policies. Developments in the Law—
Section 1983 and Federalism, 90 Harv. L. Rev.
1135, 1209-17 (1977); see also Wood v. Strickland,
420 U.S. 308, 321-22 (1975). More specifically, the
doctrine—as we know it today—was deemed necessary to protect public officials from unforeseeable
developments in the law. See Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982) (“If the law at that time was

21a
not clearly established, an official could not reasonably be expected to anticipate subsequent legal developments, nor could he fairly be said to ‘know’ that
the law forbade conduct not previously identified as
unlawful.”).
Today, the seemingly endless struggle with applying the doctrine is in defining the extent of a clearly
established right. See, e.g., City of Escondido, Cal. v.
Emmons, 139 S. Ct. 500, 503- 04 (2019). The Supreme
Court has explained that defining clearly established
rights too broadly—such as “the right to due process
of law”—“would destroy the balance that our cases
strike between the interests in vindication of citizens’
constitutional rights and in public officials’ effective
performance of their duties, by making it impossible
for officials reasonably [to] anticipate when their
conduct may give rise to liability for damages.” Anderson v. Creighton, 483 U.S. 635, 639 (1987) (internal quotation marks and citation omitted) (quoting Davis v. Scherer, 468 U.S. 183, 195 (1984).
Accordingly, the Supreme Court demanded that
“[t]he contours of the right must be sufficiently clear
that a reasonable official would understand that
what he is doing violates that right.” Id. at 640. On
the other hand, concerned that defining rights too
narrowly would create unqualified immunity, the Supreme Court also explained that its emphasis on particularity “is not to say that an official action is protected by qualified immunity unless the very action
in question has previously been held unlawful, but it
is to say that in the light of pre-existing law the unlawfulness must be apparent.” Id. (citations omitted).

22a
Judge Willett from the Fifth Circuit recently
highlighted some of the issues with the clearly-established standard in his dissent in Zadeh v. Robinson, 928 F.3d 457, 479 (5th Cir. 2019) (Willett, J.,
dissenting). Noting the courts’ division over what
level of “factual similarity must exist,” he wrote that
“the ‘clearly established’ standard is neither clear
nor established among our Nation’s lower courts.” Id.
He also emphasized that deciding immunity issues
based on a too-narrow construction of clearly established law prevents the vindication of constitutional
rights:
Merely proving a constitutional deprivation doesn’t cut it; plaintiffs must cite
functionally identical precedent that places
the legal question “beyond debate” to
“every” reasonable officer. . . . This current
“yes harm, no foul” imbalance leaves victims violated but not vindicated. Wrongs
are not righted, and wrongdoers are not reproached.
Id. Of course, the problems do not end there, as
courts have increasingly begun to skip the constitutional question and simply ask whether the right was
clearly established. Id.; see, e.g., Hagans v. Franklin
County Sheriff’s Office, 695 F.3d 505, 508 (6th Cir.
2012) (“The [constitutional] question raises some
complications. The [clearly established prong] does
not. We opt to answer the easier of the two questions,
saving the harder one for another day.”). This practice
leads to perverse results:
Plaintiffs must produce precedent even as
fewer courts are producing precedent. Im-

23a
portant constitutional questions go unanswered precisely because no one’s answered
them before. Courts then rely on that judicial silence to conclude there’s no equivalent case on the books. No precedent = no
clearly established law = no liability.
Zadeh, 928 F.3d at 479-80 (Willett, J., dissenting).
Here, the majority answered the constitutional
question first but construes the clearly- established
prong too narrowly. The sole purpose of the clearlyestablished prong, as created and announced by the
Supreme Court, is to protect officials from unforeseeable or unknowable developments in the law. Harlow, 457 U.S. at 818. It is not a blank check to engage
in specific acts that have not previously been considered by a court of controlling authority. Anderson,
483 U.S. at 640. Nor is it “a license to lawless conduct.” Harlow, 457 U.S. at 819. When defining clearly
established rights, we must have in the forefront of
our mind this question: would a reasonable officer
have known that his actions were unconstitutional?
See Anderson, 483 U.S. at 639; see also District of
Columbia. v. Wesby, 138 S. Ct. 577, 590 (2018)
(explaining that defining a right with specificity assists officers who “find it difficult to know how the
general standard of probable cause applies in ‘the
precise situation encountered’” (citation omitted)).
Defining the bounds of clearly-established rights too
narrowly prevents the vindication of constitutional
rights and allows courts to avoid the constitutional
question all together because it is “easier.” Hagans,
695 F.3d at 508.

24a
II.
At the outset, I note that the Court is left with a
one-sided account of the events from the officers’ perspective since Rhodes ended Stewart’s life. Further,
officers did not activate dash cameras, body cameras,
or any recording devices upon approaching Stewart
because the evidence suggests that they had already
determined that they were going to use force to remove him from the car rather than simply asking
him to step out of the vehicle. Yet, even with those
limitations, the majority and I both conclude that the
actions as described were unconstitutional and thus
unlawful. Because the qualified immunity inquiry
turns on the objective reasonableness of an official’s
conduct, as measured by reference to clearly established law, rather than the officer’s subjective intent,
we must review the totality of the circumstances.
Graham v. Connor, 490 U.S. 386, 396-97 (1989).
On the morning of March 13, 2017, Stewart was
asleep in his car, lawfully parked on the street. There
was no suspicion of or complaint of a suspected crime.
A woman simply called police to report that “a
creepy” car had been parked on her street for twenty
minutes with the engine running.
Catalani made the scene, and with the aid of
his flashlight, observed Stewart asleep behind the
wheel, a digital scale on the seat, and what appeared
to be a wine cap on the floor. Upon running the
license plate, Catalani determined there was an outstanding warrant for the owner of the vehicle, but he
recognized that Stewart did not fit the owner’s description. Catalani radioed another officer—Rhodes—
and told him that “once you get here, we’re goina
[sic], uh, end up pulling this guy out.”

25a
Prior to arousing Stewart, the two officers positioned themselves on either side of the car and
blocked Stewart’s vehicle in with their squad cars.
When the officers tapped on the vehicle’s window
and woke Stewart up, he engaged the engine and maneuvered the car from its position and onto the
street, striking one of the police cars in the process.
Rhodes hoisted himself into the car, and Catalani
began running behind the car. The undisputed testimony of both officers is that Stewart’s speed never
exceeded 25-30 mph and that he never exceeded the
speed limit. While Stewart drove, he asked Rhodes,
“Why are you in my car?” As Stewart continued driving forward, Rhodes repeatedly tased Stewart. When
this failed to stop Stewart from fleeing, Rhodes resorted to beating Stewart’s head with the taser and
punching Stewart repeatedly. Notably, Stewart did
not respond in kind––he did not physically attack
Rhodes, or even attempt to remove Rhodes from the
vehicle.
During the encounter, the vehicle came to a full
stop at least twice. At one point, the car was stopped
long enough for Catalani to almost catch up to the
vehicle, yet, during that stop, Rhodes did not display
his badge, exit the vehicle, or tell Stewart he was
under arrest. During the final stop of this 59-second
ordeal, Rhodes, having never identified himself as
a police officer, took out his service revolver and
shot Luke Stewart. Stewart exhibited no aggression
toward Rhodes until after Rhodes shot him. Stewart
had not tried to strike, punch, or assault him. Yet,
at a time when the vehicle was stopped, Rhodes fired
not one, but five shots into the body of Luke Stewart,
striking him in the chest, neck, torso, and wrist.

26a
III.
Not every threat is sufficient to justify the use of
deadly force. See Gonzalez v. City of Anaheim, 747
F.3d 789, 794-97 (9th Cir. 2014) (en banc). A court
should consider an officer’s use of force from the “perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Graham v.
Connor, 490 U.S. 386, 396 (1989). In Elder v. Holloway, the court reflected a permissive view of what
authorities can render the law clearly established.
510 U.S. 510 (1994). Further, a court should use its
“full knowledge” of its own and other relevant precedents in determining whether a right is clearly established. Id. at 516 (quoting Davis, 468 U.S. at 192
n.9).
In Godawa v. Byrd, we held that an officer who
shot at a fleeing suspect was not entitled to qualified
immunity. 798 F.3d 457, 460 (6th Cir. 2015). The
facts in this case do not change that analysis where
an officer, against department policy, places himself
inside a misdemeanor suspect’s car and begins tasing, beating, and punching the driver. Moreover, the
officer elected to remain in the car even through the
car stopped on several occasions. There is no evidence
in the record that Stewart posed an imminent danger to citizens or officers, making Rhodes’ assertion
of an imminent fear blatantly unreasonable, and the
use of deadly force unjustifiable. See Tennessee v.
Garner, 471 U.S. 1, 21 (1985).
The majority notes that Rhodes had no duty to retreat. However, Rhodes likewise had a duty to only
use such force as was necessary under the totality of
the circumstances. The fact that Rhodes shot Stew-

27a
art five times at near point-blank range defies reasonableness. This is the type of wantonness that
does not require a case on point to put an officer on
notice that his conduct is unreasonable. As Judge
Gorsuch opined, “some things are so obviously unlawful that they don’t require detailed explanations” or
happen so rarely that there will be no case on point.
Browder v. City of Albuquerque, 787 F.3d 1076, 1082
(10th Cir. 2015).
Had Rhodes been standing outside of the car when
he used lethal force, this would be a very simple
case—he would not be entitled to qualified immunity.
See, e.g., Lewis v. Charter Twp. of Flint, 660 F. App’x
339, 346 (6th Cir. 2016) (“There is longstanding precedent holding that it is unreasonable for an officer to
use deadly force against a suspect merely because he
is fleeing arrest; rather, such force is only reasonable
if the fleeing suspect presents an imminent danger
to the officer or others in the vicinity.”). However, in
this Circuit, the Court has not encountered the exact
situation that occurred in this case—the officer being
inside of the car at the time of the shooting. That
lack of precisely-analogous controlling law can oftentimes sound the death knell to a § 1983 claim. See
City of Escondido, Cal. v. Emmons, 139 S. Ct. at 503
(admonishing the Ninth Circuit for generally describing the clearly-established right as “the right to be
free from excessive force”). Here, the majority sounds
the death knell for Stewart’s § 1983 claims and finds
that the right was not clearly established, but I disagree.
In addition to this being a situation where precisely-analogous law should not be required, both incircuit cases and out-of-circuit cases show that

28a
Rhodes violated Stewart’s clearly-established right
to be free from excessive force when he shot Stewart
five times and killed him, even though he posed no
imminent threat of physical injury or death to the officer or the public.
A.
Although this case presents a slight variation on
the factual situations that this Court has addressed—
inside the car versus outside the car—it does so
against a backdrop of voluminous law involving fleeing suspects of which any reasonable officer would be
aware. In that way, this case aligns with Guertin v.
Michigan, 912 F.3d 907, 933 (6th Cir. 2019), in which
we recently held that a right can be clearly established—even in the face of unique factual circumstances— when “[a]ny reasonable official should have
known that” his or her actions violated the constitution. Indeed, the dissent in Guertin was particularly
concerned that there were no prior cases with similar facts, id. at 957-62 (McKeague, J., dissenting),
but that lack of analogous cases was not enough to
overcome the clarity of the constitutional violation.
Guertin is not an outlier in this respect, either.
Smith v. Cupp, 430 F.3d 766, 777 (6th Cir. 2005)
(“[W]here a general constitutional rule applies with
‘obvious clarity’ to a particular case, factually similar
decisional law is not required to defeat a claim of qualified immunity.” (citation omitted)).
This case fits the same bill. The law is clearly established in this Circuit that an officer may not use
deadly force against a fleeing suspect unless the suspect is presenting an imminent threat of physical injury or death to the officer or the public. See, e.g.,
Garner, 471 U.S. at 11 (“Where the suspect poses no

29a
immediate threat to the officer and no threat to others, the harm resulting from failing to apprehend
him does not justify the use of deadly force to do
so.”); Sample v. Bailey, 409 F.3d 689, 697 (6th
Cir.2005) (stating that “only in rare instances may an
officer seize a suspect by use of deadly force.” (quotations omitted)). Here, at the time Rhodes fired shots
at Stewart, Stewart was unarmed, was not suspected
of committing a serious felony, and was operating a
stationary vehicle. Therefore, he presented no imminent threat of death or serious physical injury to any
individual, and “any reasonable official should have
known” that lethal force was plainly inappropriate.
See Guertin, 912 F.3d at 933.
This conclusion bears out in ample case law. See,
e.g., Sigley v. City of Parma Heights, 437 F.3d 527,
537 (6th Cir. 2006) (“Where the suspect poses no immediate threat to the officer and no threat to others,
the harm resulting from failing to apprehend his [sic]
does not justify the use of deadly force to do so.” (citation and quotations omitted)). For instance, in
Smith v. Cupp, the suspect stole the police officer’s
car and drove the car directly at the police officer. 430
F.3d at 770. The police officer began shooting at the
car, allegedly firing his last shot while he was “jumping out of the direct path of the vehicle[.]” Id. Despite
the danger the police officer faced as the car drove
toward him, this Court denied the police officer’s request for qualified immunity because, at the time of
the last shot, the car did not pose a danger to the
officer or the public, making it an “obvious case” despite the lack of “factually similar decisional law[.]”
Id. at 776-77.

30a
Again, the same can be said here. Although
Rhodes asserts that he felt that he was in danger
while the car was moving, and that he feared that he
may be in danger if the car were to begin moving
again, the fact remains that the car was not moving
at the time Rhodes chose to shoot Stewart. This lack
of imminent threat of serious physical injury renders lethal force objectively unreasonable in this circumstance (despite Rhodes’ individualized concern
to the contrary). See Garner, 471 U.S. at 11-12.
B.
Although this case presents unique factual circumstances within this Circuit, there are at least
four factually similar cases from other jurisdictions.
The first is Gonzalez v. City of Anaheim, 747 F.3d
789, 795-97 (9th Cir. 2014) (en banc). In Gonzalez, the
police officer entered the suspect’s vehicle when the
suspect “stomped on the accelerator” in an effort to
flee. Id. at 792-93. After the car had travelled fifty
feet, the police officer fatally shot the suspect. Id. at
793. The Ninth Circuit found that, although the car
was moving at the time the shots were fired, the suspect did not present an imminent danger to the officer
or the public, so the police officer had violated the
suspect’s Fourth Amendment rights. Id. at 796-97.
The second, although a district court case post-dating the events of the case before us, is also instructive. Adame v. City of Surprise, No. cv-17-03200-phxgms, 2019 WL 2247703 (D. Ariz. June 29, 2018). In
Adame, a police officer instructed Adame to keep his
hands up and visible, but Adame started his car and
began pulling away. Id. at *1. The officer then entered the vehicle, told Adame to keep his hands up,
and then fired two shots. Id. The district court found

31a
that the officer “violated Adame’s clearly established
Fourth Amendment rights by unreasonably resorting
to lethal force under these circumstances.” Id. at * 4.
Another instructive case is City of Dallas v. Half
Price Books, Records, Magazines, Inc., 883 S.W.2d
374 (Tex. Ct. App. 1994). In City of Dallas, a police
officer engaged two men who were found crawling
behind cars in a parking lot. Id. at 375. Eventually,
the police officer entered the suspects’ car, struggling
with the driver, while the passenger was hitting the
police officer from behind. Id. at 375-76. At that
point, the police officer fatally shot the driver while
they were both inside of the moving car. Id. The
Texas court found that the police officer had not submitted evidence demonstrating that “a reasonably
prudent officer, under the same or similar circumstances, could have believed that his decision—to
draw and fire his gun in an attempt to stop the
fleeing suspects—was justified.” Id. at 377 (footnote
and internal quotation marks omitted).
Finally, another district court determined that
factually similar circumstances rendered the officer’s use of lethal force unjustifiable in Ford v. City
of Pittsburgh, 2016 WL 4367994 (W.D. Pa. Aug. 15,
2016). In Ford, the police officer also entered the suspect’s car and, within seconds after the car started
moving, fatally shot the suspect. Id. at *2. The court
found that, viewing the evidence in the light most favorable to the plaintiff, a jury could find that the police officer’s actions were objectively unreasonable—
i.e., unconstitutional under the Fourth Amendment—and thus denied summary judgment to the
police officer on qualified immunity grounds. Id. at
*8.

32a
While it is arguable that these four cases establish
the “robust consensus” that would put a reasonable
officer on notice of Stewart’s specific rights, see
Moldowan v. City of Warren, 578 F.3d 351, 381-82
(6th Cir. 2009) (citing three out-of-circuit cases as
evidence that a robust consensus exists); Stanton v.
Sims, 571 U.S. 3, 6-7 (2013) (considering state appellate court and district court decisions in assessing
whether a robust consensus existed), what is more
persuasive is that these four cases illuminate the application of the specific—and clearly established—
right that an individual has to be free from lethal
force when fleeing arrest in a car that is not presenting an imminent threat of serious physical harm
to anybody. Lewis, 660 F. App’x at 343 (“[W]here the
car no longer presents an imminent danger, an officer
is not entitled to use deadly force to stop a fleeing
suspect.” (quotation marks and citation omitted)).
Moreover, these four cases applied that specific right
when the suspect’s car was actually moving, whereas
in our case Stewart’s car was stopped when he was
killed. That distinction makes it even more apparent
that a reasonable officer would have known that lethal force was inappropriate in this case. As such, I
would find that Stewart’s rights were clearly established at the time that Rhodes shot and killed him.
IV.
I find myself writing separately about the dangers of unchecked police powers with unsettling and
increasing frequency. Six years ago, I dissented from
a decision affirming summary judgment for several
officers who killed Leroy Hughes, an African American man suffering from mental illness, by shocking
him with tasers twelve times in five minutes. See

33a
Sheffey v. City of Covington, 564 F. App’x 783, 796-97
(6th Cir. 2014) (Donald, J., dissenting). The first eight
shocks occurred in a single minute. Id. at 796. The total delivery exceeded 14,000 volts. Id. at 797. In that
dissent, I recalled the names of Amadou Diallo, Sean
Bell, Oscar Grant, Jonathan Ferrell, and others. Id.
at 798. And I exhorted this Court and its readers not
to “ignore the seeds of systemic inequalities sown in
our Nation’s history and lain bare by diligent review.”
Id.
We have new names today: George Floyd, Elijah
McClain, Rayshard Brooks, and too many others.
The world knows why they died. The same seeds
whose bitter fruit killed Leroy Hughes killed them
too. And on March 13, 2017, in Euclid, Ohio, they
killed Luke Stewart.
That the seeds of these senseless killings are systemic should not absolve the shooters. Our system
of justice bestows upon police great powers and a sacred trust. We rightly protect police from penalties
that otherwise would follow from poor conduct when
officers act with reason. But when officers fail to act
with reason, when they are motivated by impulses
that spring from dark corners of the psyche or simply
fail implicitly to acknowledge the humanity of the
people before them, they violate our sacred trust. And
then the same system that empowers and protects
police must, if it is to function properly, if it is to be
worthy of recognition as a system of justice, strip
those powers and protections away.
Luke Stewart should be alive today. He was unarmed, unsuspected of committing a serious felony,
and behind the wheel of a stationary vehicle when
Rhodes opened fire into his torso, chest, neck, and

34a
wrist. Qualified immunity should not shield Rhodes
from the consequences of that unreasonable decision.
I dissent.

35a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
[filed July 13, 2018]
MARY STEWART,
as Administrator of the
Estate of LUKE O.
STEWART, SR., Deceased

Case No. 1:17-cv-2122

Plaintiff,

OPINION & ORDER
[Resolving Docs. 12, 38]

vs.
CITY OF EUCLID, et al.,
Defendants.
JAMES S. GWIN, UNITED STATES DISTRICT
JUDGE:
On March 13, 2017, Euclid police officer Matthew
Rhodes shot and killed Luke Stewart Sr. (“Stewart”)
during a traffic stop.1 His mother, Mary Stewart,
now sues Officer Rhodes and Officer Louis Catalani
(who was also on the scene) on behalf of Stewart’s
estate.2 She contends that the officers violated Stewart’s constitutional and state-law rights and that
those violations caused Stewart’s death.3 She also
brings a Monell4 claim against the City of Euclid.5
1
2
3
4

Doc. 12-1 at 50, 52–53, 60.
Doc. 1 at ¶¶ 31–33, 50–65.
Id.
Monell v. Dep’t. of Soc. Servs. of the City of N.Y., 436 U.S. 658

36a
Finally, Mary Stewart also brings a state-law survivorship action.6 All three defendants have moved for
summary judgment.7
For the reasons that follow, the Court GRANTS
the Defendants’ motion for summary judgment.
I.

BACKGROUND

Because this case is at the summary judgment
stage, the Court recites the facts in the light most
favorable to the Plaintiff, resolving factual disputes
and drawing reasonable inferences in Plaintiff’s favor.8 Moreover, in evaluating the parties’ evidence,
the Court is mindful of the fact that Decedent Luke
Stewart cannot testify as to his version of what happened on March 13, 2017. This recitation of facts is
for summary judgment purposes only and is not intended to express any opinion as to what the trial evidence might have shown.
A.

Officer Catalani Responds to a Suspicious
Vehicle Report

At around 6:50 a.m. on Monday, March 13, 2017,
a Euclid resident called the Euclid Police Department.9 She told the police that there was a “creepy
looking car . . . parked outside” her house on South
Lake Shore.10 The resident described the car as a
(1978).
5 Doc. 1 at ¶¶ 34–49.
6 Id. at ¶¶ 66–69.
Doc. 12. Plaintiff Mary Stewart opposes. Doc. 22. Defendants
reply. Doc. 30.
8 See Burgess v. Fischer, 735 F.3d 462, 471 (6th Cir. 2013).
7

9

Doc. 12-1 at 51.
Id.

10

37a
“black Honda” with windows that were so dark that
she could not tell whether the car was occupied.11
She told the police that the car had been sitting outside with its parking lights on for around twenty
minutes.12
Defendant Officers Rhodes and Catalani were
dispatched to the South Lake Shore location.13 Catalani was the first to arrive to the scene.14 He drove by
the Honda that the resident had described, observing
that the running lights were on.15 Window tinting
prevented Officer Catalani from seeing inside the
vehicle.16
Defendant Officer Catalani parked his patrol vehicle about ten feet behind and slightly to the left of
the Honda.17 He trained his spotlight and takedown
lights on the vehicle, then exited his vehicle and approached the vehicle on foot.18 Despite a departmental policy requiring him to do so, Catalani did
not activate his patrol vehicle’s dashboard camera or
his belt microphone.19
Upon reaching the vehicle, Catalani observed
Luke Stewart in the driver’s seat.20 Officer Catalani
11
12

Id.
Id.

Id.
14 Id. at 52–53.
15 Doc. 14 at 39.
13

16
17

Id. at 39–40.
Id at 40.

Id. at 41, 51.
See id. at 34–37. This despite the fact that the dash camera
could be activated from the belt microphone. Doc. 15 at 75.
20 See Doc. 14 at 41, 43.
18
19

38a
shined his flashlight into the Honda, but Stewart did
not react.21 Catalani observed a digital scale in the
center console,22 what he believed to be a half-burnt
marijuana blunt in the passenger’s seat,23 and something that appeared to be the screw-on cap to a wine
bottle near Stewart’s feet.24 Catalani observed that
the keys were in the ignition but that the engine was
not running.25 Catalani did not see any weapons in
the car.26
21

Id. at 42.

22 Id. Officer Catalani also testified that there appeared to be
drug residue on the scale. Doc. 14 at 42, 44–45. But he made no
mention of any residue in his interview with agents from the
Ohio Bureau of Criminal Investigation (BCI). Doc. 12-1 at 53.
Viewing the evidence in the light most favorable to the plaintiff,
the Court will proceed as if Catalani saw no residue on the
scale. Plaintiff Mary Stewart also points out that Catalani’s
deposition testimony indicated that the scale was “black or silver,” whereas he described the scale as “silver” to the BCI
agent. Compare Doc. 14 at 44 with Doc. 12-1 at 53. This seems
to have been an attempt to conform his testimony to the physical evidence, because the scale found in Stewart’s car was apparently black (though it is tough to tell from the photographic
evidence submitted). See Doc. 22 at 7; Doc. 14 at 189; Doc. 12-1
at 83. In any event, Plaintiff does not appear to contest that
Catalani saw a scale and, even if he didn’t, that would not
change the Court’s analysis.

Doc. 14 at 42.
Id. Plaintiff Mary Stewart argues that Luke Stewart’s legs
would have blocked Catalani’s view of the wine cap. Doc. 22 at
7. But the mere fact that Stewart’s legs were extended into the
footwell area of the car, Doc. 14 at 43, does not necessarily
mean that Officer Catalani could not see the wine cap. In any
event, whether Catalani could see the cap does not affect the
Court’s analysis in this opinion.
23
24

25
26

Id. at 46.
Id. at 48.

39a
Catalani ran the Honda’s license plate and discovered the car was registered to an older man with
an active arrest warrant issued against the registered car owner.27 But Catalani thought Luke Stewart looked too young to be the owner.28
B.

Officer Rhodes Arrives and Stewart Begins
to Flee

Defendant Officer Rhodes heard the dispatch call
at the same time as Officer Catalani.29 At the time,
he was having breakfast with two other officers.30 As
Rhodes made his way to the scene, Officer Catalani
radioed to say: “[O]nce you get here, we’re goina [sic],
uh, end up pulling this guy out.”31
After arriving on the scene, Rhodes briefly discussed the situation with Catalani before moving his
car in front of Stewart’s Honda to prevent it from escaping.32 Neither officer activated his overhead
lights.33 But Officer Rhodes did direct both his spotlight and takedown lights at the Honda.34 Rhodes
admitted that these lights could blind a car’s driver.35 Rhodes also did not activate his dashboard cam27
28

Id. at 46.
Id. at 59; Doc. 12-1 at 52.

See id.
30 See Doc. 15 at 48.
31 Id. at 50; Doc. 12-1 at 52.
29

32
33

Doc. 15 at 59–62; Doc. 14 at 70–72.
See Doc. 14 at 61, 76.

Id. at 76.
Doc. 15 at 79. Defendant Officer Rhodes asserted, however,
that the tinting on the Honda would have prevented the lights
from blinding Stewart. Id. at 80. But the Honda’s windows do
not appear unusually dark in the BCI report photos. Doc. 12-1

34
35

40a
era and forgot his belt microphone in his patrol vehicle.36
Both officers approached the Honda—Officer
Catalani approached on the driver’s side, Officer
Rhodes approached on the passenger side. 37 Officer
Catalani knocked on the driver’s window, waved, and
said “hi.”38 Catalani did not announce himself as a
police officer.39
According to Officer Catalani, Stewart looked out
the window and waved back.40 Stewart then started
sitting up in the seat and went immediately to start
the car.41 He started the engine.42
At that point and according to Defendant Officer
Catalani, Catalani yelled: “No. No. No. Stop. Stop.
Stop.”43 Catalani grabbed the door handle and
opened the driver’s side door.44 He grabbed Stewart’s
left arm and tried to pull him away from the gearshift and out of the vehicle.45 Stewart began yellat 65.
36 Doc. 15 at 73–74. Officer Rhodes’ deposition seems to suggest
that he thought about turning on the camera before leaving his
vehicle, but did not do so. Id.
37 Doc. 14 at 73.
Id. at 74.
Id. Officer Rhodes testified at his deposition that he heard
Stewart say “police” around this time, Doc. 15 at 84, but Catalani makes no mention of that.
40 Doc. 14 at 75.
41 Id. at 80.
38
39

42
43
44
45

Id.
Id.
Id.
Id. at 81.

41a
ing.46 Officer Catalani then reached around Stewart’s
head with his right arm in an attempt to grab a
pressure point under Stewart’s jaw.47 Catalani continued trying to pull Stewart out of the car with his
left hand.48 Throughout all this, Catalani’s body (except for his arm) remained outside the vehicle.49
While Catalani struggled with Stewart on the
Honda’s driver’s side, Defendant Officer Rhodes
opened the passenger side door and began attempting to push Stewart out of the car.50 Bracing his
knees on the passenger seat, Rhodes leaned into the
Honda and pushed on Stewart’s side and shoulder.51
Rhodes initially pushed with his feet on the ground,
but in the course of pushing Stewart he moved further into the car, resting his knees on the passenger
seat and allowing his feet and lower legs to hang
outside the car.52 Meanwhile, Stewart was reaching
for the gearshift.53
C.

Officer Rhodes Becomes Trapped in the
Fleeing Car

According to Officer Rhodes, his and Catalani’s
push-pull routine was working—until Stewart got
the car in gear.54 Then the car began moving forward
46
47
48
49

Id. at 82.
Id.
Id. at 83–84.
Id. at 84.

Doc. 15 at 85–86.
Id. at 107.
52 Id. at 109–10.
50
51

53
54

Id. at 108.
Id. at 108.

42a
and Stewart drove his vehicle into Rhodes’ patrol vehicle.55 While Officer Catalani testified that the
Honda struck Rhodes’ vehicle “pretty hard,”56 Officer
Rhodes testified that he does not remember either
falling forward or hitting the dashboard as a result of
the impact.57
Officer Rhodes struggled with Stewart for control
of the gearshift.58 Rhodes tried to put the gearshift
into park; Stewart tried to keep the gearshift in reverse to back away from Rhode’s damaged patrol vehicle.59 But Stewart was able to get the car into reverse and back up enough to allow him to get around
Rhodes’ patrol vehicle.60
After pulling away from the collision with Rhodes
patrol vehicle, Stewart began to drive the Honda east
on South Lake Shore.61 As the Honda passed Rhodes’
55

Doc. 14 at 94.

56

Id. at 105.
Doc. 15 at 112.

57

Id. at 112.
See id. at 113–15.
60 Id. at 112–21. There is some discrepancy in the Defendant
Officers’ accounts of events at this point. Officer Rhodes, as related above, testified that Stewart was able to get the car in
reverse, then shift gears again and go around the patrol vehicle.
See id. Officer Catalani testified that the impact with the Honda caused Rhodes’ patrol vehicle to roll backwards, allowing
Stewart to drive away. Doc. 14 at 105–07. It may have been
some combination of both, because it is undisputed that Catalani’s patrol vehicle was parked further from the Honda than
Rhodes’. Doc. 15 at 62–63; Doc. 14 at 40. This dispute, however,
has no bearing on the resolution of the case.
58
59

Id. at 109. We will never know exactly why Stewart chose to
flee in this case. It could be that he was blinded by the lights on
his vehicle and did not realize at first that the people trying to
61

43a
patrol vehicle, Defendant Officer Rhodes pulled himself fully into the car to avoid his legs from becoming
pinned.62 The passenger-side door closed behind
him.63
Meanwhile, Officer Catalani was moving alongside the driver’s side of the vehicle Stewart was driving.64 Although Stewart angled the car in Catalani’s
direction to drive around Rhodes’ vehicle, Catalani
was alongside but not in front of the car.65
As the Honda made its way east, a white SUV
was travelling west on South Lake Shore.66 Defendant Officer Catalani was forced to step back from the
Honda to avoid being hit by the SUV.67 However,
Catalani followed the vehicle on foot, radioing dispatch that “the vehicle ha[d] taken off and tried to
remove him from the car were police officers. He was also well
over the legal limit for alcohol consumption while operating a
motor vehicle and under the influence of cocaine, Doc. 12-1 at
88, so he may not have been thinking rationally or have feared
prosecution. Or he might have fled as a result of his previous
encounters with other police officers. Id. at 76–80. In any event,
Stewart’s reasons for fleeing do not impact the outcome of this
case, particularly because there is no real evidence that Officers
Rhodes and Catalani were aware of his level of intoxication or
criminal history. (That said, Catalani apparently suspected that
Stewart might be passed out because of the blunt, cap, and alleged residue on the scale—though, as discussed above, the
Court discounts this latter observation—he thought he saw in
the Honda. Doc. 14 at 47–50.)
62 Doc. 15 at 121–22.
Id. at 120–21.
Doc. 14 at 94, 109.
65 Id. at 103–05.
63
64

66
67

Id. at 109.
Id.

44a
run us over.”68 Catalani testified that the Honda was
travelling at about twenty-five miles per hour down
South Lake Shore.69
Up to this point, Stewart had made no attempt to
strike either of the Defendant Officers.70 Indeed,
Stewart was just driving and looked at Rhodes to
ask: “Why are you in my car?”71 Rhodes yelled in response, but doesn’t remember what he specifically
said.72
D.

The Car Briefly Stops

Inside the Honda, Officer Rhodes was attempting
to get control of the gearshift and keys.73 He began
punching Stewart in the head.74 Defendant Officer
Rhodes testified that Stewart did not react to being
punched, other than to say “Na n****” every time he
was hit.75 Rhodes testified that he was saying things
to or yelling at Stewart as he struck Stewart, but
does not remember what he was yelling.76 Stewart
did not attempt to defend himself.77 Rhodes believes
he struck Stewart three times.78

68
69
70
71

Id. at 113.
Id.
Id. at 104; Doc. 15 at 125.
Id. at 123.

Id.
Id. at 129–30.
74 Id. at 130.
72
73

75
76
77
78

Id.
Id. at 135.
Id.
Id. at 138.

45a
Officer Rhodes did not attempt to remove Stewart’s arm from the gearshift.79 Nor did he attempt to
use the emergency brake,80 even though it was next
to the gearshift that Rhodes was fighting with Stewart to control.81
At one point, Officer Rhodes grabbed the keys,
but they would not come out of the ignition because
the vehicle was not in park.82
As the car proceeded down South Lake Shore, Officer Rhodes was apparently able to get the car into
neutral several times.83 When he did, he would reach
up to try to turn the car off.84 But as he reached up
from the gear shift to turn the car off, Stewart would
shift the car back in drive and they would continue
down the street.85
Eventually Rhodes pulled out his Taser and shot
Stewart with it.86 Stewart called out “Ah!” and said:
“you shot me.”87 The Taser apparently had no other
effect.88 Then the Taser stopped making noise.89 Officer Rhodes discovered the safety on the Taser had

79
80
81
82

Id. at 132.
See id. at 136.
Doc. 14 at 189–90.
Doc. 15 at 133–34.

Id. at 139–40.
Id. at 140.
85 Id.
83
84

86
87
88
89

Id. at 144.
Id. at 144.
See id.
Id. at 145.

46a
re-engaged.90 He turned the safety off and pulled the
trigger five additional times.91 It had no additional
effect.92
Defendant Officer Rhodes’ Taser was equipped
with a “drive-stun” feature that would have allowed
the officer to use the body of the Taser (rather than
the prongs deployed when the Taser is fired like a
gun) to administer an electrical shock to Stewart.93
But Rhodes did not use this feature.94 Nor did he deploy pepper spray.95
Instead, when the Taser prongs proved ineffective, Officer Rhodes began hitting Stewart in the
head with the Taser.96 Stewart merely jerked and
said “naw, n****.”97 Stewart swatted at Officer
Rhodes or pushed him away in a defensive fashion,
but not with a closed fist.98
Notwithstanding the ineffectiveness of the Taser
(both as a method of applying electric shocks and as
a club), the Honda came to a stop in the intersection
90
91

Id.
See id. at 145, 150.

Id. at 145.
Id. at 149, 202; Axon, TASER X26EEE ECD User Manual
17–18 (2011) (hereinafter “User Manual”). While the Taser user
manual cited in this opinion was not submitted into the record
by the parties, the Court uses it primarily to explain the functions of a Taser (particularly those mentioned by the parties but
not explained in their filings).

92
93

Doc. 15 at 149.
Id. at 150.
96 Id. at 157–58.
94
95

97
98

Id.
See id. at 161.

47a
between South Lake Shore and East 222nd Street
while making a left-hand turn.99 Rhodes believes
that he was thrown into the dashboard, but doesn’t
“remember exactly.”100 At this point, Rhodes got the
car into neutral and shut off the engine.101 But he
still could not get the keys out of the ignition.102
Officer Rhodes testified that he did not know why
the car stopped, but thought they had hit another
vehicle.103 Officer Catalani was still pursuing the vehicle on foot, however, and testified that the car never hit anything.104
While the car was stopped at the intersection, Defendant Officer Catalani caught up to the vehicle.105
According to Catalani, there were cars operating on
222nd Street at the time.106 Catalani caught up to
the Honda’s in the ten to fifteen seconds the car was
stopped.107
Defendant Officer Rhodes saw Officer Catalani
approach the vehicle. 108 He also heard dispatch order the next shift of officers, who were located nearby
Id. at 153; Doc. 14 at 126, 135.
Doc. 15 at 159–60. Officer Rhodes testified that he lost his
Taser at this point, id., but that contradicts his statement to
the BCI, Doc. 12-1 at 59–60.
101 Doc. 15 at 153.
99

100

102

Id.
Id. at 155.
104 See Doc. 14 at 155.
103

105
106
107
108

Id. at 138.
Id. at 139.
Id at 137–40; See Doc. 15 at 156.
Id. at 162.

48a
at the station, to exit roll call to assist Rhodes and
Catalani.109 But then Stewart got the car started
again and began driving down 222nd Street just as
Officer Catalani was about to put his hand on the
door handle.110
E.

Officer Rhodes Decides to Use Deadly
Force

The Honda then proceeded down 222nd Street at
twenty-five to thirty miles per hour.111 Officer
Rhodes continued to unsuccessfully struggle with
Stewart for control of the gearshift and the keys.112
As they vied for vehicle control, the Honda went
up over the curb and around a telephone pole before
returning to the roadway.113 It mounted the curb
again near the intersection of 222nd Street and Milton Avenue.114 Officer Rhodes was thrown forward
and lost his Taser as they mounted the curb a second
time and Stewart tried to push him forward, but
Stewart made no attempt to strike Rhodes.115 At
around the same time, Rhodes was able to get the
vehicle into neutral again and the vehicle had come

109

Id.
Id. at 163, 165; See Doc. 14 at 137–38, 151. Officer Rhodes
testified that it appeared to him as if Catalani attempted to
open the Honda’s driver side door, but that it would not open.
Doc. 15 at 162.

110

111
112

Id. at 151.
Doc. 12-1 at 60.

Doc. 15 at 166; Doc. 14 at 151.
Doc. 15 at 168.
115 Id. at 168–69; Doc. 12-1 at 60.
113
114

49a
to a stop.116 Nonetheless, Stewart continued to rev
the engine.117
It was at this point that Defendant Officer
Rhodes chose to use deadly force.118 Rhodes shot
Stewart twice in the torso with his service weapon.119
Stewart looked at Rhodes, said “Naw, n****,” and
attempted to strike him.120 Rhodes fired his weapon
three additional times, striking Stewart in the neck,
chest, and wrist.121
Rhodes then attempted to exit the Honda, but the
passenger door would not open.122 After he kicked
the door several times, he was able to open the door
and exit.123
A later BCI investigation revealed that, by the
end of Rhodes and Stewart’s struggle, the Honda
could no longer be shifted into drive.124
F.

Procedural History

In October 2017, Plaintiff Mary Stewart, on behalf of Luke Stewart’s estate, filed this lawsuit
against Defendant Officers Rhodes and Catalani and
the City of Euclid.125 She brings federal claims under
116

See id.

117

Id.

118

See id.
Doc. 15 at 172.

119
120

Id.

121

Id. at 173, 175; see Doc. 12-1 at 81–82.
Doc. 15 at 176–77.

122

Id. at 177.
Doc. 12-1 at 88.
125 Doc. 1.
123
124

50a
42 U.S.C. § 1983 against all three defendants, alleging that their conduct violated Stewart’s constitutional rights.126 She also brings Ohio state law (1)
wrongful death; (2) intentional infliction of emotional
distress; (3) assault and battery;(4) willful, wanton,
and reckless conduct; and (5) survivorship claims
against Officers Rhodes and Catalani.127
All three Defendants move for summary judgment.128
II.

LEGAL STANDARD

Under Federal Rule of Civil Procedure 56,
“[s]ummary judgment is proper when ‘there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.’”129
The moving party must demonstrate this lack of any
genuine dispute of fact.130
Once the moving party has done so, the nonmoving party must set forth specific record facts—
not mere allegations or denials in pleadings—
showing a triable issue of fact.131 The non- moving
party must show more than some doubt as to the material facts in order to defeat a motion for summary
judgment.132 But the Court views the facts and all
126

Id. at ¶¶ 31–49.

Id. at ¶¶ 50–69.
Doc. 12. Plaintiff opposes. Doc. 22; Doc. 23; Doc. 25; Doc. 28;
Doc. 29; Doc. 32. Defendants reply. Doc. 30; Doc. 31; Doc. 34.

127
128

129 Killion v. KeHE Distribs., LLC, 761 F.3d 574, 580 (6th Cir.
2014) (quoting Fed. R. Civ. P. 56(a)).
130 See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).

See Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986).

131

132

Id. at 586.

51a
reasonable inferences from those facts in favor of the
non-moving party.133
When parties present competing versions of the
facts on summary judgment, a district court adopts
the non-movant’s version of the facts unless incontrovertible record evidence directly contradicts that
version.134 Otherwise, a district court does not weigh
competing evidence or make credibility determinations.135
III. ANALYSIS
A.

Constitutional Claims Against the Individual Officers

Defendant Officers Rhodes and Catalani argue
that they are entitled to qualified immunity from
Stewart’s § 1983 claims.136 The Court agrees.
1.

Qualified Immunity Standard

“Qualified immunity is intended to protect public
officials from unnecessary interference with their duties, while also holding them accountable ‘when they
exercise power irresponsibly.’”137 It “gives government officials breathing room to make reasonable
but mistaken judgments about open legal questions.”138 “When properly applied, it protects ‘all but
Killion, 761 F.3d at 580 (internal citations omitted).
134 See Scott v. Harris, 550 U.S. 372, 380 (2007).
133

Koren v. Ohio Bell Tel. Co., 894 F. Supp. 2d 1032, 1037 (N.D.
Ohio 2012) (citing V & M Star Steel v. Centimark Corp., 678
F.3d 459, 470 (6th Cir. 2012)).
136 Doc. 12 at 7–12.
137 Godawa v. Byrd, 798 F.3d 457, 462 (6th Cir. 2015) (quoting
Pearson v. Callahan, 555 U.S. 223, 231 (2009)).
138 Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011).
135

52a
the plainly incompetent or those who knowingly violate the law.’”139
“Public officials are entitled to qualified immunity
from suits for civil damages if either [1] the official’s
conduct did not violate a constitutional right or [2] if
that right was not clearly established at the time of
the [official’s] conduct.”140
2.

Constitutional Violation
a.

Officer Catalani

Because Defendant Officer Catalani was not in
the Honda and did not fire his weapon at Stewart,
Plaintiff’s claim against him is premised on the initial decision to pull Stewart out of the Honda on
South Lake Shore.141 She argues that this violated
Stewart’s Fourth Amendment right to be free from
unreasonable seizure.142 Viewing the evidence in the
light most favorable to Plaintiff, she is mistaken.
Stewart was seized within the meaning of the
Fourth Amendment when Defendant Officers Rhodes
and Catalani attempted to remove him from his car.
The question is whether that seizure was constitutionally permitted.
“Generally, the Fourth Amendment requires at
least a ‘reasonable suspicion’ that an individual has
committed a crime before the individual may be
seized.”143 “Reasonable suspicion is more than an ill139
140

Id. (quoting Malley v. Briggs, 475 U.S. 335, 341 (1986)).
Latits v. Phillips, 878 F.3d 541, 547 (6th Cir. 2017).

141

Doc. 22 at 20–21.

142

Id.
Bletz v. Gribble, 641 F.3d 743, 755 (6th Cir. 2011); see also

143

53a
defined hunch; it must be based upon a particularized and objective basis for suspecting the particular
person of criminal activity.”144 An officer performing
an investigatory stop of a suspect must be able to
point to “’specific and articulable facts which, taken
together with rational inferences from those facts,
reasonably warrant’” the stop and subsequent investigation.145
That said, “reasonable suspicion” is a quantum of
evidence “considerably less than proof of wrongdoing
by a preponderance of the evidence” and “obviously
less demanding than that for probable cause.”146
“[R]easonable suspicion” may also be based on evidence that is “less reliable than that required to
show probable cause.”147
In this case, it is uncontested that Officer Catalani observed what he believed to be a marijuana
blunt inside Stewart’s vehicle.148 As marijuana use is
a criminal offense, that is sufficient to establish reasonable suspicion to stop Stewart and investigate
further. It is true, as Plaintiff argues, that Catalani
had not yet confirmed that what he saw was, in fact,
a marijuana blunt.149 But absolute certainty is not
Terry v. Ohio, 392 U.S. 1 (1968).
144 United States v. Collazo, 818 F.3d 247, 257 (6th Cir. 2016)
(quoting United States v. Shank, 543 F.3d 309, 313 (6th Cir.
2008)).
145 See Eisnnicher v. Bob Evans Farms Rest., 310 F. Supp. 2d
936, 946 (S.D. Ohio 2004) (quoting Terry, 392 U.S. at 21).
146 See United States v. Sokolow, 490 U.S. 1, 7 (1989).
Alabama v. White, 496 U.S. 325, 330 (1990).
Doc. 14 at 42.
149 Doc. 22 at 20.
147
148

54a
required even to establish probable cause, let alone
reasonable suspicion. It is enough that Defendant
Officer Catalani saw what appeared to be a blunt inside the vehicle.
Because he had reasonable suspicion to justify
stopping Stewart, Officer Catalani could order Stewart out of his vehicle without any additional suspicion.150
The complicating factor in this case is that Officer
Catalani does not seem to have ever actually ordered
Stewart to exit the vehicle, because Stewart started
the car and attempted to put it in gear before he did
so. Stewart was, therefore, not defying any order to
step out of the Honda.
But focusing on that fact ignores the fact that
Stewart was attempting to flee the scene—or, at
least, a reasonable officer could believe he was. He
had, after all, started the engine.151 Then, despite Officer Catalani’s instruction to “stop,” Stewart reached
for the gearshift.152 The Sixth Circuit has held that a
police officer may use reasonable force to remove a
suspect from his vehicle where that person “refuse[s]
to stop his vehicle despite a police officer’s obvious
indication that he should.”153 The force used by Catalani in his interactions with Stewart on South Lake
Shore were reasonable, albeit unsuccessful, efforts to
remove a fleeing suspect from his vehicle. The Court
See Pennsylvania v. Mimms, 434 U.S. 106 (1977); see also
Maryland v. Wilson, 519 U.S. 408 (1997).
150

Doc. 14 at 80.
Doc. 15 at 107–08.
153 Hayden v. Green, 640 F.3d 150, 153–54 (6th Cir. 2011).
151
152

55a
therefore finds that Catalani did not violate Stewart’s rights.
It is true that Officer Catalani did not verbally
identify himself as a police officer before attempting
to remove Stewart from the Honda.154 It is also true
that Catalani’s command to “stop” may have been
given as he opened the car door.155 And it may also
be true that the lights from Catalani’s and Rhodes’
patrol vehicles temporarily blinded Stewart, preventing him from seeing that it was a police officer outside his window.156 But these facts do not affect the
reasonableness of Catalani’s conduct.
Fourth Amendment reasonableness is determined
from the officer’s perspective, not the suspect’s.157
Defendant Officer Catalani had no way of knowing
whether Stewart was blinded by the patrol vehicle
lights, even if he was aware that it was possible. For
all Catalani knew, Stewart woke to find himself
boxed in by two police vehicles158 and with two fully
uniformed police officers159 outside his windows—
circumstances that would suggest to any reasonable
person that they were not free to leave—and decided
to flee the scene. And Catalani was not required to
stand in place, allowing Stewart uninhibited access
Doc. 14 at 74.
155 Id. at 80–81.
154

Id. at 61–62, 76; Doc. 15 at 79.
Hayden, 640 F.3d at 153 (“We decide [whether an officer
used excessive force] based on ‘the perspective of a reasonable
officer on the scene . . . .’” (quoting Graham v. Connor, 490 U.S.
386, 396 (1989))).
158 Doc. 14 at 40; Doc. 15 at 62.
159 Doc. 12-1 at 4, 14.
156
157

56a
to the keys and gearshift, while he identified himself
and ordered Stewart to stop. He could—and did—
take reasonable steps to prevent Stewart from driving away as soon as it appeared that Stewart would
attempt to flee.
Plaintiff argues that, all of that notwithstanding,
Officer Catalani’s conduct was unconstitutional because he intended to use physical force to remove
Stewart from the vehicle long before Stewart gave
him any cause to do so.160 She bases her argument on
Catalani’s radio dispatch informing Rhodes that
“we’re goina [sic], uh, end up pulling this guy out.”161
But an officer’s subjective intent is not relevant to
the Court’s Fourth Amendment analysis, so long as
the officer’s conduct was otherwise justified.162 In
other words, because Stewart gave Officer Catalani a
valid, Fourth-Amendment-compliant reason to remove him from the Honda, the fact that Catalani
might have otherwise intended to do does not matter
in a legal sense. This is not to say that such an intention, if Officer Catalani possessed it, is not problematic in a moral sense; only that it does not affect the
outcome of this case.
b.

Officer Rhodes

Plaintiff contends that Defendant Officer Rhodes
violated Stewart’s constitutional rights in two ways.
i.
160
161

Initial Stop

Doc. 22 at 20.
Doc. 12-1 at 52.

Cf. Whren v. United States, 517 U.S. 806, 813 (1996) (“Subjective intentions play no role in ordinary, probable- cause
Fourth Amendment analysis.”).

162

57a
First Plaintiff contends that, like Defendant Officer Catalani, Rhodes violated Stewart’s rights during the initial stop on South Lake Shore.163 The
Court rejects this claim for largely the same reasons it rejected the same claim as to Officer Catalani:
Rhodes acted reasonably in attempting to remove an
apparently fleeing suspect from the Honda. While
there may have been wiser means of doing so than
entering the vehicle from the passenger side, the
Court cannot say Rhodes’ effort to prevent Stewart’s
flight during the initial stop was unreasonable.
ii.

Use of Deadly Force

Second, Plaintiff contends that Officer Rhodes
used unconstitutionally excessive force when he fatally shot Stewart on 222nd Street.164 Although it is
a close and difficult question, the Court ultimately
concludes that Rhodes did not use unconstitutionally
excessive force.
General Legal Standard
The Fourth Amendment limits the amount of
force a police officer may employ to detain a suspect.
165The test for excessive force is “whether the officer[’s] actions [were] ‘objectively reasonable’ in light
of the facts and circumstances confronting them,
without regard to their underlying intent or motivation.”166 Objective reasonableness is assessed from
the point of view of the officer at the time of the use
Doc. 22 at 20–21.
Id. at 17–20.
165 Papp v. Snyder, 81 F. Supp. 2d 852, 856 (N.D. Ohio 2000).
163
164

Cass v. City of Dayton, 770 F.3d 368, 374 (6th Cir. 2014)
(quoting Graham v. Connor, 490 U.S. 386, 397 (1989)).

166

58a
of force, not with the benefit of hindsight or evidence
that later investigations reveal about the circumstances the officer faced.167
“In determining reasonableness, a court allows
for the fact that police officers are often forced to
make split-second judgments about the amount of
force that is necessary in a particular situation, in
‘tense, uncertain, and rapidly evolving circumstances.’”168 A court should “never allow the theoretical,
sanitized world of [its] imagination to replace the
dangerous and complex world policemen face every
day.”169 “What constitutes ‘reasonable action’ may
seem quite different to someone facing a possible assailant than to someone analyzing the question at
leisure.”170
An officer is justified in using deadly force on a
fleeing suspect only where he has probable cause to
believe that the suspect presents an immediate
threat of physical harm to the officer or others.171
The Segmented Approach
Additionally, the Sixth Circuit has held that
courts must use a “segmented analysis” to determine
whether an officer properly used deadly force.172 In
167

Id. at 375.

Jones v. Beatty, 4 F. Supp. 2d 737, 743 (N.D. Ohio 1998)
(quoting Graham, 490 U.S. at 396)).
168

Id. at 743–44 (quoting Smith v. Freland, 954 F.2d 343, 345
(6th Cir. 1992)).
169

Id. at 744. (quoting Smith, 954 F.2d at 345).
Chappell v. City of Cleveland¸ 585 F.3d 901, 908 (6th Cir.
2009) (quoting the district court below and Tennessee v. Garner,
471 U.S. 1, 11 (1985)).
172 Id. at 909 (quoting Livermore ex rel. Rohm v. Lubelan¸ 476
170
171

59a
other words, the Court must focus on “the totality of
the circumstances facing” Defendant Officer Rhodes
“at the time [he] made [his] split second judgments
immediately prior to using deadly force.”173 “Because
it is the reasonableness” of that use of force “that is
the issue, not the reasonableness of [Rhodes’] conduct in time segments leading up to” the use of force,
the Court cannot consider whether Rhodes acted reasonably in those earlier time periods in determining
whether he properly used deadly force in this case.174
The Sixth Circuit justified its “segmented approach” in Dickerson v. McClellan,175 explaining that:
The time-frame is a crucial aspect of excessive force cases. Other than random attacks, all such cases begin with the decision
of a police officer to do something, to help,
to arrest, to inquire. If the officer had decided to do nothing, then no force would
F.3d 397, 406 (6th Cir. 2007)). Plaintiff sought to file a sur-reply
addressing the Defendants’ citation to the segmented approach
in their reply brief. Doc. 33. She argued that the Defendants
had not raised this approach in their earlier briefing. Id. at 1–2.
The Court denied that motion. Doc. 35. The Court notes here,
however, that the “segmented approach” is not a new argument;
it is how the Sixth Circuit has directed district courts to consider excessive force cases involving the use of deadly force. The
Court would, therefore, have been obligated to use it regardless
of whether the Defendants had raised it. Moreover, the Court
has (out of an abundance of caution) reviewed Plaintiff’s proposed sur-reply brief. Doc. 33-1. Nothing in that brief changes
its conclusion in this case.
173 Chappell, 585 F.3d at 909.
174

Id.
101 F.3d 1151, 1161 (6th Cir. 1996) (quoting Plakas v. Drinski, 19 F.3d 1143, 1150 (7th Cir. 1994)).
175

60a
have been used. In this sense, the police officer always causes the trouble. But it is
trouble which the police officer is sworn to
cause, which society pays him to cause and
which, if kept within constitutional limits,
society praises the officer for causing.
The Sixth Circuit has applied the segmented approach even where a plaintiff has contended that officers’ earlier conduct transgressed constitutional
limits.176 And the Supreme Court has rejected an alternative rule.177
There is reason to question a rule that immunizes
officers for the use of deadly force that, although it
was reasonable in the moment, was prompted by the
officers’ own earlier reckless conduct.178 But the
Court must apply the segmented approach, regardless of whether the Court agrees with it.

176

Chappell, 585 F.3d at 909.

County of L.A. v. Mendez, 137 S. Ct. 1539 (2017).
178 See generally Billington v. Smith, 292 F.3d 1177, 1189 (9th
Cir. 2002) abrogated by Mendez, 137 S. Ct. 1539 (holding that
an officer could be liable where (1) he “intentionally or recklessly provoke[d] a violent confrontation” and (2) “the provocation
[was] an independent Fourth Amendment violation.”). This sentence in the main opinion text is not meant to imply that Defendant Officer Rhodes’ earlier conduct in this case was reckless
in the Billington sense. As a result of the segmented approach,
the Court need not and does not make any determination on
that front and considers recklessness only in relation to the
Plaintiff’s Ohio state law claims in Section III.B. The Court only
means to say here that in at least some cases the segmented
approach shields officers from the legal consequences of their
own dangerous recklessness and that the Court believes that
approach may be unwise.
177

61a
As a result, the Court does not consider (for instance) whether Rhodes could have exited the Honda
while it was stopped at the intersection of South
Lake Shore and 222nd Street or whether Rhodes and
Catalani should have left less space between their
patrol vehicles on South Lake Shore so as to more
effectively box Stewart’s Honda in. It limits its analysis to the circumstances confronting Rhodes in the
moment he used deadly force.
The Use of Deadly Force
The question is whether, at the moment that Defendant Officer Rhodes used deadly force, Defendant
Officer Rhodes had probable cause to believe that
Stewart posed an imminent risk of serious physical
harm to the officer or others. Probable cause
amounts to a “fair probability” or “substantial
chance” that a fact is true.179
In this case, Defendant Officer Rhodes had witnessed the Honda leave the roadway on two occasions.180 And on one of those occasions the car came
close to colliding with a telephone pole.181 Officer
Rhodes was not securely buckled into the passenger
seat.182 The car was not travelling at an unreasonable rate of speed,183 but that is likely because Rhodes’
179 Cf. Illinois v. Gates, 462 U.S. 213, 238, 243 n.13 (1983); see
also United States v. Poulsen, 655 F.3d 492, 504 (6th Cir. 2011)
(“The magistrate judge properly found probable cause. Certainty is not required, but rather a fair probability and something
more than mere suspicion.”).
180 Doc. 15 at 166, 168; Doc. 14 at 151.

Doc. 14 at 151, 155.
See Doc. 15 at 131, 167–68.
183 Doc. 14 at 151.
181
182

62a
struggle with Stewart over the gearshift prevented
the car from remaining in drive for an extended period of time.184 It is uncontested that Stewart was attempting to accelerate down the street, even though
the car had stopped and was in neutral at the moment Rhodes shot Stewart.185 The Honda had been
travelling down a residential street at around the
time many people begin heading to work.186 And
Rhodes’ prior attempts to stop the car—by gaining
control of the gearshift and ignition, by tasing Stewart, and by striking him with the Taser and his
fists—had proved ineffective.
Under these circumstances, Defendant Officer
Rhodes had probable cause to believe that he was in
danger of serious physical harm and that there was
some similar risk to the public. He was, therefore,
justified in using deadly force. It also seems to the
Court that Officer Rhodes was justified in using
deadly force to prevent himself from being kidnapped
by Stewart.187
184
185

See Doc. 12-1 at 60.
Id. at 60.

Doc. 15 at 44, 203. Defendant Officer Rhodes does not mention a concern for public safety in his deposition, focusing primarily on the danger to himself and a desire to stop the vehicle.
Id. at 167–71. Plaintiff uses this to suggest that public safety
concerns cannot justify the shooting. See Doc. 22 at 11–13. But
it is not clear that is true. Rhodes seems to have indicated to
the BCI that he feared for public safety. Doc. 12-1 at 62. In any
event, the test here is objective and not dependent upon Rhodes’
actual subjective intent. Chappell, 585 F.3d at 908.
187 This may not have been Stewart’s intention. It may well be
that he simply meant to flee. But whether intentionally or not,
Stewart was transporting Officer Rhodes against Rhodes’ will
to an unknown location.
186

63a
Admittedly, Officer Rhodes did not use all possible means of bringing the Honda to a stop. He did
not, for instance, pull the emergency brake, use pepper spray, or use the drive-stun feature on his Taser.
But the ultimate question is not whether the officer
exhausted every possible alternative before resorting
to deadly force.188 It is whether there was probable
cause to believe that deadly force was necessary to
avoid a serious risk to the officer or others. And in
this case, the Court is not persuaded that there were
viable alternatives to the use of deadly force.
Pulling the emergency brake might have brought
the Honda to a swift stop. But it also posed the risk
of sending Officer Rhodes, who was not wearing a
seatbelt, through the windshield.189 Moreover, there
is no reason that Stewart could not have disengaged
the brake as easily as he was able to consistently put
the car back into drive. The brake and the gearshift
were, after all, right next to each other.190
Using pepper spray in the enclosed passenger
cabin of the Honda risked blinding Rhodes as well as
Stewart.191
Deploying the Taser’s drive stun feature also
seems unlikely to have made much difference. A
Scott v. Edinburg, 346 F.3d 752, 760 (7th Cir. 2003); 3
Wayne R. LaFave, Search & Seizure § 5.1(d) (2017) (“[T]he
Fourth Amendment does not require police to exhaust every
alternative before using deadly force; the alternative must be
reasonably likely to lead to apprehension before the suspect can
cause further harm.” (footnotes omitted)).

188

See Doc. 15 at 131, 167–68.
Doc. 14 at 189–90.
191 Doc. 15 at 150.
189
190

64a
Taser works by causing neuro muscular incapacitation, which immobilizes a person by causing involuntary stimulation of the sensory and motor nerves.192
It does so by sending an electrical flow between the
two probes launched from the Taser when it is
fired.193 The greater the distance between the probes,
the more muscles that are effected and the greater
the incapacitation.194
If the probes are not spread far enough, perhaps
because the officer was not far enough from the subject when the Taser was fired, the Taser will not
cause as much incapacitation and will mainly become a tool for causing pain compliance.195 Put another way, if the probes are not spread out enough,
they will cause pain but will not immobilize a suspect. Defendant Officer Rhodes testified that he suspects this is why the Taser did not work on Stewart:
there was not enough space inside the Honda’s passenger cabin for the probes to spread before contacting Stewart.196
All of this is relevant here because the drive stun
feature is primarily a tool of pain compliance, much
like the probes if there is not enough distance between them.197 So if the probes did not work when
operating as a pain compliance measure, one would
suspect the drive stun feature would not work either.
Or at least a reasonable officer in the midst of a wild
192

User Manual at 5–6.

193

See id. at 6.
See id. at 6, 16.

194

Id. at 16.
Doc. 15 at 145–47.
197 User Manual at 17.
195
196

65a
ride with a suspect who refused to respond to blows
to his head might conclude that.198
Plaintiff suggests that Officer Rhodes and/or Officer Catalani could have called for backup or asked
that stop sticks be placed in front of the car.199 Those
options, however, would require other officers to
overtake Stewart’s vehicle, which would present a
challenge even though the police station was nearby.
Perhaps Officer Rhodes could have slowed Stewart
down enough to allow for these options by continuing
to struggle for the gearshift. But that would be asking Rhodes to gamble that nothing would happen between the time he called for backup or stop-sticks
and the time they were deployed. Moreover, this
analysis is the sort of speculative, hindsight-driven
theorizing that the Sixth Circuit has directed district
courts to avoid.200
The Court rejects the argument that Rhodes
could simply have gotten out of the car while it was
stopped after mounting the curb a second time. Police officers have no duty to retreat before using
deadly force once a suspect puts them in a position
where deadly force is justified.201 Moreover, having
witnessed Stewart quickly get the vehicle into drive
multiple times, Officer Rhodes had little reason to
Defendant Officer Rhodes testified that he did not think to
use the drive stun feature. Doc. 15 at 149. So all of this is
somewhat speculative. The point is, though, that even if he had
thought of it, it appears that it would not have been effective in
stopping the Honda.
199 See Doc. 22 at 10–11.
200 See Jones, 4 F. Supp. 2d at 743–44.
198

201 See Nicholson v. Kent Cty. Sheriff’s Dep’t, 839 F. Supp. 508,
516 (W.D. Mich. 1993).

66a
believe that Stewart would not be able to get the car
moving again between the time he stopped fighting
for the gearshift and started attempting to exit the
vehicle. Jumping on Stewart or grabbing for the
steering wheel might have been even more dangerous if Stewart was able to get the car in gear again.
We now know, of course, that the Honda could no
longer be shifted into drive and, thus, could no longer
be moved forward.202 But there is no evidence that
Defendant Officer Rhodes knew that the vehicle was
incapacitated. The Court must evaluate the use of
deadly force from his perspective.203
Finally, it is true that (1) Stewart was not attempting to harm Rhodes in the Honda and (2) that
some of Stewart’s erratic driving may have been
caused by Rhodes’ attempts to gain control of the vehicle. The Court is not persuaded that these facts
change the analysis. First, even if Stewart’s actions
inside the Honda did not necessarily put Officer
Rhodes or others at risk of physical harm, his refusal
to stop operating the Honda did. And second, Officer
Rhodes was not required to allow Stewart to
transport him to another location without a struggle
and the fact that the struggle put his life in danger
justified the use of deadly force.
The Court is aware that the Ninth Circuit Court
of Appeals has concluded that a constitutional violation did occur under similar circumstances.204 But
that decision is not binding on this Court and the
202
203

Doc. 12-1 at 88.
Jones, 4 F. Supp. 2d at 743.

204 Gonzalez v. City of Anaheim, 747 F.3d 789 (9th Cir. 2014) (en
banc).

67a
Court is not persuaded by its reasoning. Faced with
these circumstances, the Court is simply not sure
what alternative course Officer Rhodes could safely
have taken.
***
All fatal encounters between citizens and the police are tragedies on both a personal and societal level. And it is right that citizens should ask whether an
officer-involved shooting was avoidable, including
through the use of the legal system. Ultimately,
though, in a § 1983 case, the question is not whether
every action an officer took was wise or whether that
officer made mistakes. Nor is the question whether
the Court, in hindsight, can imagine a way in which
the shooting could have been avoided.
The question is whether, under all of the circumstances facing the officer at the moment he pulled
the trigger, there was probable cause to believe that
the suspect posed a serious risk of physical harm to
the officer or others. The Court finds that, even viewing the facts in the light most favorable to the Plaintiff, there was probable cause for such a belief in this
case. It follows that Defendant Officer Rhodes’s use
of deadly force did not violate Stewart’s Fourth
Amendment rights.205
Plaintiff’s complaint mentions that her § 1983 claims are
based upon violations of both the Fourth and Fourteenth
Amendments. Doc. 1 at ¶ 32. To the extent this is meant to reflect the fact that the Fourth Amendment’s guarantees are incorporated against the States by way of the Fourteenth
Amendment’s Due Process Clause, she is correct. See generally
Mapp v. Ohio, 367 U.S. 643 (1961). To the extent that she is
attempting to state a Due Process claim separate and distinct
from the Fourth Amendment’s guarantees, such a claim fails.

205

68a
3.

Clearly Established

Having concluded that Defendant Officers Rhodes
and Catalani did not violate Stewart’s constitutional
rights, the Court need not necessarily consider
whether those rights were clearly established.206 The
Court declines to do so for Plaintiff’s claims regarding the initial stop on South Lake Shore.
But whether Defendant Officer Rhodes’ use of
deadly force violated Stewart’s constitutional rights
was a much closer question. So (out of an abundance
of caution) the Court considers whether, even assuming the use of deadly force was a constitutional violation, that violation was clearly established. The
Court concludes that it was not.
The Sixth Circuit has held that “it is axiomatic
that individuals have a clearly established right not
to be shot absent ‘probable cause to believe that
[they] pose[ ] a threat of serious physical harm, either to the officer or to others.’”207 But the Circuit
has since recognized that Supreme Court precedent
See Graham, 490 U.S. at 395 (“[A]ll claims that law enforcement officers have used excessive force—deadly or not—in the
course of an arrest, investigatory stop, or other ‘seizure’ of a
free citizen should be analyzed under the Fourth Amendment
and its ‘reasonableness’ standard, rather than under a ‘substantive due process’ approach. Because the Fourth Amendment provides an explicit textual source of constitutional protection against this sort of physically intrusive governmental
conduct, that Amendment, not the more generalized notion of
‘substantive due process,’ must be the guide for analyzing these
claims.” (emphasis in original)).
206 See Hayden, 640 F.3d at 153.
207 Mullins v. Cyranek, 805 F.3d 760, 765 (6th Cir. 2015) (quoting Sample v. Bailey, 409 F.3d 689, 698 (6th Cir. 2005) (second
and third alterations in original).

69a
stops this Court from defining a right at such a high
level of generality for qualified immunity purposes.208
“A clearly established right is one that is ‘sufficiently clear that every reasonable official would
have understood that what he is doing violates that
right.’”209 The Supreme Court has repeatedly told
courts “not to define clearly established law at a high
level of generality.”210 Instead, “[t]he dispositive
question is ‘whether the violative nature of particular conduct is clearly established.’”211
While some cases may be obvious violations of
constitutional rights and the law does not require a
case that is “directly on point” to recognize a right as
clearly established, “existing precedent must” nonetheless “have placed the statutory or constitutional

See Latits, 878 F.3d at 552–53. Ordinarily, the earlier decided case (Mullins) would control over the later case (Latits). Sowards v. Loudon Cty, 203 F.3d 426, 431 n.1 (6th Cir. 2000)
(“When a later decision from this court conflicts with its prior
decisions, the earlier cases control.”). But the Supreme Court
has further clarified its position between the time the Sixth
Circuit decided Mullins and the time it decided Latits. White v.
Pauly, 137 S. Ct. 548, 552 (2017) (per curiam) (“Today, it is
again necessary to reiterate the longstanding principle that
‘clearly established law’ should not be defined ‘at a high level of
generality.’” (quoting al-Kidd, 563 U.S. 731, 742 (2011))). The
Court will abide by the Supreme Court’s instructions.
209 Mullenix v. Luna, 136 S.Ct. 305, 308 (2015) (per curiam)
(quoting with alterations Reichle v. Howards, 566 U.S. 658, 664
(2012)).
210 al-Kidd, 563 U.S. at 742.
208

211 Mullenix, 136 S. Ct. at 308 (quoting al-Kidd, 563 U.S. at
742) (emphasis in original).

70a
question beyond debate.”212 “The precedent clearly
establishing a right can be in the form of a case of
‘controlling authority or a robust consensus of cases
of persuasive authority.’”213
There is no such controlling authority or persuasive authority here.
Plaintiff points to cases like Smith v. Cupp214to
attempt to show that Defendant Officer Rhodes’ conduct here violated a clearly established right.215 That
case, however, is very different from the facts here.
In Smith, an officer detained a suspect in a restaurant parking lot, handcuffed him, and placed him
in the backseat of a police cruiser.216 The suspect
somehow escaped his restraints and gained control of
the cruiser while the officer was outside the vehicle.217 He then drove the cruiser in the officer’s direction, either in an attempt to hit the officer or in order
to get out of the parking lot.218 The officer shot the
suspect multiple times as he passed.219 The Sixth
Circuit denied qualified immunity because a reasonable jury could find a constitutional violation.220 It
explained that a jury could find that the suspect was
White, 137 S. Ct. at 551 (quoting Mullenix, 136 S. Ct. at 308).
Latits, 878 F.3d at 552 (quoting Plumhoff v. Rickard, 134 S.
Ct. 2012, 2023 (2014)).
214 430 F.3d 766 (6th Cir. 2005).
212
213

215
216

Doc. 22 at 19–20 n.14, 21.
430 F.3d at 769.

217

Id.

218

Id. at 769–70.

219

Id.
Id. at 773–75.

220

71a
simply trying to escape and that the officer was outside the zone of danger when he fired.221 The other
controlling case Plaintiff cites is factually similar to
Smith.222
This case, however, is very different. Defendant
Officer Rhodes was not outside the Honda in a place
of safety when he shot Stewart. He was inside the
vehicle, struggling for control, as it travelled down a
public roadway.
Indeed, the facts in Latits v. Phillips223were more
similar to Smith than the facts in this case. In Latits,
officers engaged in a high-speed chase with a suspect, eventually forcing his car off the road in violation of department policy.224 When the suspect’s car
stopped, officers pulled along either side.225 Another
officer pulled in front of the suspect’s car when he
started to slowly move forward again.226 The officer
who rammed the suspect off the road ran behind the
suspect’s car and shot the suspect when he began to
reverse away from the cruisers that had boxed him
in.227 Notwithstanding the factual similarities with
Smith, the Sixth Circuit nonetheless held that the
constitutional violation in Latits was not clearly established.228 This suggests that any constitutional
See id.
222 See Godawa v. Byrd, 798 F.3d 457 (6th Cir. 2015).
223 878 F.3d 541.
221

224
225

Id. at 544–46.
Id. at 546.

226

Id.

227

Id.
Id. at 552–53.

228

72a
violation in this case also was not clearly established,
because the facts in this case are further afield of
Smith than the facts in Latits.
Moreover, there are several decisions that, although persuasive rather than binding, could be read
to suggest that Officer Rhodes’ conduct was constitutionally permissible. In those cases, an officer was
being dragged along outside a vehicle by a suspect
attempting to flee after a traffic stop.229
Again, this case is different: Defendant Officer
Rhodes was inside the vehicle and, thus, not in danger of being run over or dragged down the street at
the time he shot Stewart. But the fact remains that
the facts of this case lie somewhere between the facts
of Smith and the facts of the vehicle dragging cases.
That ambiguity precludes the alleged deadly force
constitutional violation in this case from being clearly established.
Plaintiff points to two out-of-circuit cases, including the Ninth Circuit case discussed above, to support her position.230 But two persuasive cases do not
establish the “robust consensus” of persuasive authority necessary to show that the alleged violation
here was clearly established.231
229Jones¸4 F. Supp. 2d 737; Estate of Alexander v. Merrow,
No. 14-cv-11612, 2016 WL 1465011 (E.D. Mich. April 14, 2016)
(aff’d sub nom, Alexander v. County of Wayne, 689 F. App’x. 441
(6th Cir. 2017)).

229

Doc. 22 at 19–20 n.14 (citing Gonzalez¸747 F.3d 789 and
Ford v. City of Pittsburgh, No. 13-cv-1364, 2016 WL 4367994
(W.D. Pa. Aug. 15, 2016)).
231 Latits, 878 F.3d at 552 (quoting Plumhoff, 134 S. Ct. at
2023).
230

73a
For those reasons, the Court concludes that Defendant Officer Rhodes would be entitled to qualified
immunity on Plaintiff’s excessive force claim even if
his use of deadly force violated Stewart’s constitutional rights.
B.

State Law Claims Against the Individual
Officers

Plaintiff also brings a variety of Ohio state-law
claims against Defendant Officers Rhodes and Catalani.232 The Defendant Officers argue that they are
immune from those claims under Ohio law.233 The
Court agrees.
Ohio law immunizes public employees from liability unless (1) “[t]he employee’s acts or omissions
were manifestly outside the scope of the employee’s
employment or official responsibilities;” (2) those
“acts or omissions were with malicious purpose, in
bad faith, or in a wanton or reckless manner;” or (3)
“[c]ivil liability is expressly imposed upon the employee by” statute.234 Plaintiff contends that the second of these exemptions applies in this case.235
For the reasons (discussed in Section III.A) that
the Court concluded that Officers Rhodes and Catalani did not violate Stewart’s constitutional rights,
the Court also concludes that the officers did not act
with malicious purpose, in bad faith, or wantonly or
recklessly within the meaning of Ohio law. Officers
Rhodes and Catalani acted reasonably in attempting
232

Doc. 1 at ¶¶ 50–69.

Doc. 12 at 22-23.
O.R.C. § 2744.03(A)(6).
235 Doc. 22 at 24–25.
233
234

74a
to remove Stewart from his vehicle when he began to
flee the scene. And Officer Rhodes had probable
cause to believe that he or others were in serious risk
of physical injury when he shot and killed Stewart on
222nd Street.
The Court therefore concludes that the Officer
Defendants are entitled to immunity from Plaintiff’s
Ohio state-law claims.236
C.

Monell Claim Against the City of Euclid

Finally, Plaintiff brings a Monell claim against
Defendant City of Euclid, alleging that its practices
or procedures led to the violation of Stewart’s constitutional rights and his death.237 Because the Court
finds that Defendant Officers Rhodes and Catalani
did not violate Stewart’s constitutional rights, Plaintiff’s Monell claim fails.238

The City of Euclid also asserts that it is entitled to immunity
from Plaintiff’s Ohio state-law claims. Doc. 12 at 20–22. But
Plaintiff does not assert any state-law claims against the City of
Euclid. See generally Doc. 1. Instead, she brings only a Monell
claim against the City. The only claim that could possibly be
interpreted otherwise is her survivorship claim, Doc. 1 at 66–
69, but even that appears to be solely directed at the Officer
Defendants. Out of an abundance of caution, however, the
Court concludes that—to the extent Plaintiff’s Ohio state-law
claims are directed against the City of Euclid—the City is immune from those claims. See O.R.C. § 2744.02.

236

Doc. 1 at ¶¶ 34–49.
238 See City of Los Angeles v. Heller, 475 U.S. 796, 799 (1986)
(per curiam) (“If a person has suffered no constitutional injury
at the hands of the individual police officer, the fact that the
departmental regulations might have authorized the use of constitutionally excessive force is quite beside the point.”); see also
Peet v. City of Detroit, 502 F.3d 557, 566 (6th Cir. 2007).
237

75a
The Court will note, though, that the City might
have some difficulty surmounting Plaintiff’s Monell
claim if that were not the case. Of particular concern
is the City’s blasé attitude toward excessive force
training. Other than whatever basics are taught to
officers when they attend a police academy, the
City’s training seems to consist initially of simply
reading the excessive force policy after advising officers to “pay attention.”239 The City then apparently
follows that up with a barebones yearly test (which is
the same every year) and yearly scenarios that each
focus on a single genre of facts that might require the
use of force.240 But the City does not seem to make
any serious effort to track which scenarios individual
officers were exposed to or ensure that the scenarios
(over the course of several years) cover a comprehensive range of instances that might require the use of
force.241
Moreover, although the police department’s training policy calls for a training committee to review
training needs and set training objectives, the department apparently does not have such a committee.242
Lastly, the presentation materials used during at
least one of the Euclid Police Department’s in-service
trainings display a disturbing tendency to trivialize
the use of excessive force.243 For instance, one slide
Doc. 20 at 35–36; see Doc. 21 at 27, 42, 45–46; Doc. 37 at 14,
119–20.
240 Id. at 28–32.
241 Id. at 36–47; Doc. 21 at 33–37.
239

242
243

Id. at 29; Doc. 12-1 at 35–36.
The Court GRANTS Plaintiff’s motion to supplement her

76a
contains the following graphic showing an officer
beating a prone and unarmed suspect with the caption “[p]rotecting and serving the poop out of you.”244

Another slide, which expressly discusses the department’s use of force policy, contains an image of
two officers—one holding a shotgun, the other holding a pistol—with furious expressions on their faces.245 The caption on this slide reads: “Bed bug! Bed
bug on my shoe!”246
Yet another slide contains a link to a Chris Rock
comedy routine on YouTube entitled “How not to get
summary judgment briefing in light of Police Chief Scott Meyer’s deposition, which could not be taken prior to the deadline
for filing her opposition. Doc. 38 at 1.
244 Doc. 37-1 at 25; see Doc. 37 at 128–38.
245
246

Doc. 37-1 at 49; see Doc. 37 at 128–38.
Doc. 37-1 at 49; see Doc. 37 at 128–38.

77a
your ass kicked by the police!”247 During the skit,
Rock says:


“People in the black community . . . often worry that we might be a victim of police brutality, so as a public service the Chris Rock Show
proudly presents: this educational video.”248



“Have you ever been face-to-face with a police
officer and wondered: is he about to kick my
ass? Well wonder no more. If you follow these
easy tips, you’ll be fine.”249



“We all know what happened to Rodney King,
but Rodney wouldn’t’ve got his ass kicked if he
had just followed this simple tip. When you
see flashing police lights in your mirror, stop
immediately. Everybody knows, if the police
have to come and get you, they’re bringing an
ass kicking with ‘em.”250



“If you have to give a friend a ride, get a white
friend. A white friend can be the difference between a ticket and a bullet in ya’.”251

The video also shows numerous clips of multiple officers beating suspects.252 Whatever the merits of
Doc.
37-1
at
41
(linking
to
https://www.youtube.com/watch?v=uj0mtxXEGE8).
248 InsaneNutter, Chris Rock-How not to get your ass kicked by
the
police!
(Feb.
2,
2007),
https://www.youtube.com/watch?v=uj0mtxXEGE8.
247

249

Id.

250

Id.

251

Id.

252

Id.

78a
this routine as comedy, it is grossly inappropriate in
the context of a police department’s use of force
training.
To be clear, the Court does not find that the Department’s dubiously supervised and organized excessive force training regimen or its tasteless, irresponsible frivolity with regard to the use of force
would certainly support a Monell claim if Officers
Rhodes and Catalani had violated Stewart’s constitutional rights. It mentions these facts to express its
caution that the Euclid Police Department seems to
view the use of force (including deadly force) with
cavalier indifference and to suggest that the viability
of a Monell claim would be a close question.
In this case, however, the lack of a constitutional
violation precludes Monell liability.
IV. CONCLUSION
For all of those reasons, the Court GRANTS the
Defendants’ motion for summary judgment and orders that Plaintiff’s complaint be DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED.
Dated: July 13, 2018

s/James S. Gwin
JAMES S. GWIN
UNITED STATES
DISTRICT JUDGE

